                                        U.S. DEPARTMENT OF

                                           ENERGY
                                      OFFICE OF INSPECTOR GENERAL
April 1 – September 30, 2013




                               Semiannual Report toCongress

                                                             DOE/IG-0065
TABLE OF CONTENTS

From the Desk of the Inspector General ..................................................... 2

Impacts
        Key Accomplishments ............................................................................................... 3
        Positive Outcomes ...................................................................................................... 3


Reports
        Investigative Outcomes .............................................................................................. 6
        Audits ......................................................................................................................... 8
        Inspections ............................................................................................................... 16
        Recovery Act ............................................................................................................ 19


Results
        Congressional Hearings ......................................................................................... 23
        Legislative and Regulatory Reviews ....................................................................... 23
        Reports Lacking Management Decision .................................................................. 24
        Prior Significant Recommendations Not Implemented ............................................ 25
        Audit and Inspection Reports with Recommendations for Better Use of Funds ...... 30
        Audit and Inspection Reports with Questioned and/or Unsupported Costs ............ 31
        Investigative Activity ................................................................................................ 32
        Hotline Activity ........................................................................................................ 33
        Whistleblower Retaliation Complaints .................................................................... 34
        Peer Reviews ............................................................................................................ 35


Summaries
        Investigative Outcomes ............................................................................................ 36
        Audit Reports ........................................................................................................... 44
        Inspection Reports .................................................................................................. 60
        Recovery Act Reports .............................................................................................. 66
        Reporting Requirements Index ................................................................................ 76




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013                                              1
                            From the Desk of the Inspector General
On behalf of the Office of Inspector General, I am pleased to submit the Semiannual Report to
Congress for the period ending September 30, 2013. This report highlights key accomplishments
of the Office of Inspector General, particularly pertaining to our efforts to ensure the economy,
efficiency, and effectiveness of Department of Energy programs and operations.

During this reporting period, we issued a total of 56 audit and inspection reports. Among a
number of important topics, these reports addressed allegations of prohibited personnel practices
at the Bonneville Power Administration, the administration of energy savings performance
contract biomass projects, and quality assurance for the Waste Treatment and Immobilization
Plant at the Hanford Site. In general, these reports emphasized the need for more effective
oversight of Departmental programs and operations.

In addition, the Office of Inspector General continued to aggressively pursue those attempting to
defraud the Department and the taxpayers. This report summarizes our investigative efforts,
which resulted in fines, settlements, and recoveries of nearly $8 million as well as significant
criminal convictions and other administrative actions.

While this report marks the end of Fiscal Year 2013, our efforts continue. We look forward to
working with Secretary Moniz, senior Department leadership, and program officials in our
mutual effort to protect the interests of the U.S. taxpayer.




                                                            Gregory H. Friedman
                                                            Inspector General




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   2
IMPACTS

Key Accomplishments


Results
Total Reports Issued                                                                                  56

        Audit Reports Issued                                                                     31

        Inspection Reports Issued                                                                10

        Recovery Act Reports Issued                                                              15

Funds Put to Better Use                                                                   $85.9 Million

Questioned Costs                                                                      $265.1 Million

Unsupported Costs                                                                          $2.0 Million

Dollars Recovered (Fines, Settlements, Recoveries)                                         $7.8 million

Criminal Convictions                                                                                  12

Suspensions and Debarments                                                                            29

Civil and Administrative Actions                                                                      25

Hotline Complaints Received and Processed                                                        3,338



Positive Outcomes
During this reporting period, the Department took positive actions as a result of OIG work
conducted during the current or previous periods. Consistent with our findings and
recommendations:

    •   The Department of Justice and the United States Attorney’s Office for the Eastern
        District of Washington finalized a settlement agreement with Fluor Hanford, Inc. and its
        parent company, Fluor Corporation (Fluor Hanford). Fluor Hanford agreed to pay $1.1
        million to resolve its potential civil False Claims Act liability, of which $500,000 was
        paid to the Department. This settlement of a complaint originally brought under the qui
        tam provisions of the False Claims Act follows an investigation that determined Fluor




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013                3
        Hanford used Department funds to hire lobbyists to influence Congress and other Federal
        officials. The complaint alleged that Fluor Hanford paid for lobbying to increase funding
        for a hazardous materials management and emergency response training center. The use
        of Federal funds to pay lobbyists violated Fluor Hanford’s contract with the Department.

    •   An OIG investigation revealed that Clean Fuel, LLC (Clean Fuel), the recipient of a $2.5
        million Recovery Act grant, defrauded the Department by submitting a series of
        fraudulent checks and purchase invoices for a bio-diesel fuel generator that Clean Fuel
        never actually purchased. The investigation revealed that the owner of Clean Fuel moved
        the Department grant funds to various personal and business accounts and later used the
        funds for personal expenses that included payments on a Manhattan condominium and a
        luxury suite at Lincoln Financial Field in Philadelphia, Pennsylvania. As a result of this
        joint investigation with the Florida Department of Agriculture and Consumer Services
        and the United States Secret Service, the Department received $2,232,000 in
        reimbursements from Clean Fuel, the amount of the grant distributed by the Department.

    •   The Office of Electricity Delivery and Energy Reliability resolved the remaining
        questioned costs, and the Department recovered about $11.6 million as a result of our
        audit on The Department of Energy's $700 Million Smart Grid Demonstration Program
        Funded through the American Recovery and Reinvestment Act of 2009 (January 10,
        2013, OAS-RA-13-08). The Office of Electricity Delivery and Energy Reliability also
        took action to address our concerns relating to consultant rates and revised the best
        practices guide, which assists staff with enhancing cost analysis techniques related to
        consultants' rates.

    •   In our report on the Assessment of Audit Coverage of Cost Allowability for Sandia
        Corporation during Fiscal Years 2009 and 2010 under Department of Energy Contract
        No. DE-AC04-94AL85000 (February 20, 2013, OAS-V-13-07), Sandia National
        Laboratories (Sandia) performed a review of all projects and prepared an amended tax
        return for FY 2009. As a result, Sandia obtained a refund of $8,900,000 in April 2013.
        In addition, Sandia is strengthening its controls over project tax deductibility
        determinations and has created a new IT tool for its yearly tax review process.

    •   The Department’s Office of General Counsel and the National Nuclear Security
        Administration’s Office of General Counsel revised 10 CFR Part 719 to require
        contractors to institute a Department-approved legal management plan and submit an
        annual budget for legal expenses in response to our report on The Department of
        Energy’s Management of Contractor Fines, Penalties and Legal Costs (September 30,
        2009, DOE/IG-0825). Additionally, contractors are required to submit staffing and
        resource plans that demonstrate the resources to be committed to litigation for significant
        matters, and the Department’s pre-approval is now required for settlements greater than
        $25,000 or $100,000 for matters handled by retrospective insurance carriers.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    4
    •   Our inspection on Concerns with Consulting Contract Administration at Various
        Department Sites, (June 7, 2013, DOE/IG-0889) identified serious concerns with the
        administration and management of agreements with Heather Wilson and Company, LLC
        for advice and consultation provided to senior managers at four Department contractor-
        operated sites. As a result, the Department has recovered $442,877 of the approximately
        $464,203 paid to Heather Wilson and Company, LLC, and is reviewing the allowability
        of the additional amounts.

    •   Our September 2005 report on Characterization Wells at Los Alamos National
        Laboratory, (July 9, 2013, DOE/IG-0703), identified concerns regarding mud rotary
        drilling methods during well construction. Los Alamos National Laboratory no longer
        uses mud rotary drilling methods during well construction, and appropriate steps have
        been taken to ensure data derived from monitoring wells is reliable.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   5
REPORTS

Investigative Outcomes


Outcome                                                                                   Page
Sentencing in Access Device Fraud Investigation                                           36

Actions in California Weatherization Fraud and Bribery Investigations                     36

Recovery of Funds from American Recovery and Reinvestment Act Sub-Grantee                 36

Actions in Per Diem Investigations                                                        37
National Energy Technology Laboratory Takes Actions in Response to Investigative
                                                                                          37
Report to Management
The Office of Energy Efficiency and Renewable Energy Takes Action in Response to
                                                                                          37
Investigative Report to Management

Former Department Manager Sentenced                                                       37

Settlement in Misuse of Federal Funds Investigation                                       38

Sentencing in Western Area Power Administration Theft                                     38

Portsmouth Prime Contractor and Subcontractor Employees Terminated                        38

Former Recovery Act Contractor Debarred                                                   38

Indictment in Computer Conversion/Resale Investigation                                    38

Former Subcontractor Employee Debarred                                                    39

Former University of Kentucky Professor Indicted                                          39

Former Subcontractor Employee Debarred for Theft of Government Property                   39
American Recovery and Reinvestment Act Weatherization Assistance Program Sub-
                                                                                          39
grantee and Official Debarred
Guilty Plea in Embezzlement of Recovery Act Funds                                         40



Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   6
Outcome                                                                                   Page
Guilty Verdict in Y-12 Destruction                                                        40

Settlement in Misuse of Federal Funds Investigation                                       40

Administrative Action Taken in Recovery Act Weatherization Fraud Investigation            40

Two Former Contractor Employees Debarred                                                  40

Former Hanford Site Contractor Sentenced in Purchase Card Investigation                   41

Small Business Innovation and Research Grantee Suspended                                  41

Conviction in Child Pornography Investigation                                             41

Reimbursement to Government for Science Misconduct                                        41

Settlement Agreement with Department Vendor                                               42

Community Based Organization Suspended in Recovery Act Weatherization Fraud
                                                                                          42
Investigation

Subcontractor Enters into a Voluntary Exclusion Agreement with the Department             42

Sentencing in Recovery Act Grant Investigation                                            42

Former Western Area Power Administration Employee Sentenced                               43

Settlement Agreement with Energy Efficiency and Conservation Block Grant Recipient        43




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   7
Audits


                                                                            Un-
Date               Audit                     Better Use          Questioned Supported           Page
Issued             Reports                   of Funds            Costs      Costs
                   Assessment of
                   Audit Coverage of
                   Cost Allowability
                   for Honeywell
                   Federal
                   Manufacturing &
                                                                                               Summary
                   Technologies, LLC
                                                                                                 Not
                   for the period
                                                                                              Publically
Apr 2, 2013        October 1, 2008                                   $25,056,536
                                                                                              Available –
                   thru September 30,
                                                                                                Official
                   2011 under
                                                                                               Use Only
                   Department of
                   Energy Contract
                   Nos. DE-AC04-
                   01AL66850 and
                   DE-NA0000622
                   (OAS-V-13-09)
                   Assessment of
                   Audit Coverage of
                   Cost Allowability
                   for Washington
                                                                                               Summary
                   TRU Solutions,
                                                                                                 Not
                   LLC during Fiscal
                                                                                              Publically
Apr 2, 2013        Years 2008 through                                     $11,899
                                                                                              Available –
                   2011 under
                                                                                                Official
                   Department of
                                                                                               Use Only
                   Energy Contract
                   No. DE-AC29-
                   01AL66444
                    (OAS-V-13-10)
                   The Department of
                   Energy's Use of the
                   Environmental
Apr 9, 2013        Management Waste             $14,400,000                                       44
                   Management
                   Facility at the Oak
                   Ridge Reservation
                   (DOE/IG-0883)

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   8
                                                                            Un-
Date               Audit                     Better Use          Questioned Supported         Page
Issued             Reports                   of Funds            Costs      Costs
                   Allocation of Direct
                   and Indirect Costs –
                   Cost Accounting
                   Standard 418 – at
Apr 11, 2013                                                                                   44
                   Lawrence
                   Livermore National
                   Laboratory
                   (OAS-L-13-07)
                   Management of
                   Naval Reactors'
Apr 12, 2013       Cyber Security                                                              45
                   Program
                   (DOE/IG-0884)
                   Management and
                   Operating
                   Contractors'
Apr 17, 2013                                                                                   46
                   Subcontract Audit
                   Coverage
                   (DOE/IG-0885)
                   Home Office
                   Expenses
                   Submitted by Fluor
                   Federal Services,
                   Inc., on Savannah
                   River Nuclear
                   Solutions, LLC's
Apr 19, 2013                                                          $1,293,244               46
                   U.S. Department of
                   Energy
                   Management &
                   Operating (M&O)
                   Contract No. DE-
                   AC09-08SR22470
                   (OAS-L-13-08)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   9
                                                                            Un-
Date               Audit                     Better Use          Questioned Supported            Page
Issued             Reports                   of Funds            Costs      Costs
                   The Use of Staff
                   Augmentation
                   Subcontracts at the
                   National Nuclear
May 15, 2013       Security                                           $3,700,000                   47
                   Administration’s
                   Mixed Oxide Fuel
                   Fabrication Facility
                   (OIG/IG-0887)
                   The Office of
                   Environmental
May 28, 2013       Management's                                                                    48
                   Disposition of
                   Transuranic Waste
                   (OAS-L-13-09)
                   Assessment of
                   Audit Coverage of
                   Cost Allowability
                                                                                                Summary
                   for UT-Battelle,
                                                                                                  Not
                   LLC under
                                                                                               Publically
Jun 4, 2013        Department of                                     $66,305,886
                                                                                               Available –
                   Energy Contract
                                                                                                 Official
                   No. DE-AC05-
                                                                                                Use Only
                   00OR22725 during
                   Fiscal Year 2010
                   (OAS-V-13-11)
                   Mitigation of
                   Natural Disasters at
Jun 24, 2013       Los Alamos                                                                      48
                   National
                   Laboratory
                   (OAS-M-13-04)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   10
                                                                            Un-
Date               Audit                     Better Use          Questioned Supported            Page
Issued             Reports                   of Funds            Costs      Costs
                   Fiscal Year 2011
                   Audit of the Work
                   Performed Under
                   the Work for Others
Jun 24, 2013       Program at the                   $400,000                                       49
                   Lawrence Berkeley
                   National
                   Laboratory
                   (OAS-L-13-10)
                   Follow-up Audit on
                   Term Assignments
Jul 2, 2013        of Contractor                    $500,000                                       49
                   Employees
                   (DOE/IG-0890)
                   Assessment of
                   Audit Coverage of
                   Cost Allowability
                   for Oak Ridge
                                                                                                Summary
                   Associated
                                                                                                  Not
                   Universities, Inc.
                                                                                               Publically
Jul 8, 2013        under Department                                  $10,062,720
                                                                                               Available –
                   of Energy Contract
                                                                                                 Official
                   No. DE-AC05-
                                                                                                Use Only
                   06OR23100 for
                   Fiscal Years 2007-
                   2011
                   (OAS-V-13-12)
                   Safety Aspects of
                   Wet Storage of
Jul 10, 2013                                                                                       50
                   Spent Nuclear Fuel
                   (OAS-L-13-11)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   11
                                                                            Un-
Date               Audit                     Better Use          Questioned Supported            Page
Issued             Reports                   of Funds            Costs      Costs
                   Assessment of
                   Audit Coverage of
                   Cost Allowability
                   for SLAC National
                   Accelerator                                                                  Summary
                   Laboratory for the                                                             Not
                   period October 1,                                                           Publically
Jul 31, 2013                                                          $4,842,208
                   2007 thru                                                                   Available –
                   September 30, 2011                                                            Official
                   under Department                                                             Use Only
                   of Energy Contract
                   No. DE-AC02-76-
                   SF00515
                   (OAS-V-13-13)
                   The Kansas City
                   Responsive
                   Infrastructure
Aug 1, 2013                                                                                        51
                   Manufacturing and
                   Sourcing Program
                   (OAS-L-13-12)
                   Cost Transfers at
                   the Department’s
                   Sodium Bearing
                   Waste Treatment
Aug 8, 2013                                                           $7,900,000                   51
                   Facility
                   Construction
                   Project
                   (OAS-M-13-03)
                   Lawrence
                   Livermore National
                   Laboratory’s Use of
Aug 8, 2013                                         $924,162                                       52
                   Time and Materials
                   Subcontracts
                   (OAS-M-13-06)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   12
                                                                            Un-
Date               Audit                     Better Use          Questioned Supported          Page
Issued             Reports                   of Funds            Costs      Costs
                   Southwestern
                   Federal Power
                   System’s Fiscal
Aug 12, 2013       Year 2012                                                                    53
                   Financial Statement
                   Audit
                   (OAS-FS-13-13)
                   The Department of
                   Energy’s Appliance
Aug 16, 2013       and Equipment                                                                53
                   Standards Program
                   (OAS-M-13-05)
                   The Department of
                   Energy’s
                   Administration of
                   Energy Savings
Aug 26, 2013                                    $67,400,000                                     54
                   Performance
                   Contract Biomass
                   Projects
                   (DOE/IG-0892)
                   The Department of
                   Energy’s
                   Management of
Sep 4, 2013        Contractor                                                                   54
                   Responsibility
                   Determinations
                   (OAS-M-13-07)
                   Sandia National
                   Laboratories’
                   Readiness in
Sep 5, 2013                                                                                     55
                   Technical Base and
                   Facilities Program
                   (OAS-L-13-13)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   13
                                                                            Un-
Date               Audit                     Better Use          Questioned Supported            Page
Issued             Reports                   of Funds            Costs      Costs
                   Assessment of
                   Audit Coverage of
                   Cost Allowability
                                                                                                Summary
                   for UT-Battelle,
                                                                                                  Not
                   LLC under
                                                                                               Publically
Sep 5, 2013        Department of                                   $135,478,752
                                                                                               Available –
                   Energy Contract
                                                                                                 Official
                   No. DE-AC05-
                                                                                                Use Only
                   00OR22725 during
                   Fiscal Year 2011
                   (OAS-V-13-14)
                   Follow-up Audit of
                   the Department of
                   Energy’s Financial
Sep 9, 2013        Assistance for                                         $12,000                  56
                   Integrated
                   Biorefinery Projects
                   (DOE/IG-0893)
                   Fiscal Year 2011
                   Work Performed
                   Under the Work for
Sep 25, 2013       Others Program at              $2,300,000                                       56
                   Sandia National
                   Laboratories
                   (OAS-L-13-14)
                   The Radioactive
                   Liquid Waste
                   Treatment Facility
                   Replacement
Sep 26, 2013                                                                                       57
                   Project at Los
                   Alamos National
                   Laboratory
                   (OAS-L-13-15)
                   The Department of
                   Energy’s Energy
Sep 30, 2013                                                            $261,463                   57
                   Innovation Hubs
                   (OAS-M-13-08)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   14
                                                                            Un-
Date               Audit                     Better Use          Questioned Supported          Page
Issued             Reports                   of Funds            Costs      Costs
                   The Resumption of
                   Criticality
                   Experiments
                   Facility Operations
Sep 30, 2013                                                                                    58
                   at the Nevada
                   National Security
                   Site
                   (OAS-M-13-09)
                   Department of
                   Energy Quality
                   Assurance: Design
                   Control for the
Sep 30, 2013       Waste Treatment                                                              58
                   and Immobilization
                   Plant at the Hanford
                   Site
                   (DOE/IG-0894)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   15
Inspections


                                                                                      Un-
 Date              Inspection                Better Use          Questioned           Supported    Page
Issued             Reports                   of Funds            Costs                Costs
                   Alleged
                   Mismanagement of
                   the Department of
Apr 15, 2013       Energy’s Executive                                                               60
                   Protection
                   Operations
                   (INS-SR-13-02)
                   Alleged
                   Improprieties
                   Regarding the
Apr 19, 2013       Canine Program at                                                                60
                   the Department of
                   Energy’s Y-12 Site
                   (DOE/IG-0886)
                   Alleged Nepotism
                   and Wasteful
                   Spending in the
Jun 6, 2013        Office of Energy                                                                 61
                   Efficiency and
                   Renewable Energy
                   (DOE/IG-0888)
                   Concerns with
                   Consulting Contract
                   Administration at
Jun 7, 2013                                                                                         62
                   Various                                              $462,203
                   Department Sites
                   (DOE/IG-0889)
                   Follow-up
                   Inspection on
                   Characterization
Jul 9, 2013        Wells at Los                                                                     62
                   Alamos National
                   Laboratory
                   (INS-L-13-05)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013       16
                                                                                      Un-
 Date              Inspection                Better Use          Questioned           Supported    Page
Issued             Reports                   of Funds            Costs                Costs
                   Follow-up
                   Inspection on
                   Material Control
                   and Accountability
Jul 18, 2013                                                                                        63
                   at Los Alamos
                   National
                   Laboratory
                   (INS-O-13-04)
                   Management Alert-
                   Allegations
                   Regarding
                   Prohibited
Jul 16, 2013       Personnel Practices                                                              63
                   at the Bonneville
                   Power
                   Administration
                   (DOE/IG-0891)
                   Allegations of
                   Irregular Hiring
                   Practices and
                   Preferential
Aug 21, 2013                                                                                        64
                   Treatment in the
                   Loan Programs
                   Office
                   (INS-L-13-06)
                   Unclassified
                   Foreign National
                   Visits and
Sep 16, 2013       Assignments at Oak                                                               65
                   Ridge National
                   Laboratory
                   (INS-O-13-05)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013       17
                                                                                      Un-
 Date              Inspection                Better Use          Questioned           Supported    Page
Issued             Reports                   of Funds            Costs                Costs
                   Accountability and
                   Control of
                   Explosives at
                   Lawrence
                   Livermore National
Sep 30, 2013                                                                                        65
                   Laboratory’s High
                   Explosives
                   Applications
                   Facility
                   (INS-O-13-06)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013       18
Recovery Act


                                            Better                       Un-
Date              Recovery Act              Use of            Questioned Supported                     Page
Issued            Reports                   Funds             Costs      Costs
                  Cost Incentives for
                  the Department's
May 13, 2013      Cleanup Contract in                                                                      66
                  Idaho
                  (OAS-RA-13-20)
                  The Hydrogen
                  Energy California
Jun 6, 2013                                                                                                66
                  Project
                  (OAS-RA-13-22)
                  Department of
                  Energy's
                  Interconnection
                  Transmission
Jun 19, 2013      Planning Program                                     $86,000                             67
                  Funded through the
                  American Recovery
                  and Reinvestment
                  Act of 2009
                  (OAS-RA-13-26)
                  Modular Office
                  Facilities for
Jul 9, 2013       Recovery Act                                     $2,068,000                              68
                  Program Activities
                  at the Hanford Site
                  (OAS-RA-L-13-04)
                  The Department of
                  Energy Vehicle
                  Technologies
Jul 25, 2013      Program's $135                                                                           68
                  Million in Funding
                  to Ecotality, Inc.
                  (OAS-RA-13-29)
                  The Department of
                  Energy’s Hydrogen
 Sep 27, 2013     and Fuel Cells                                   $6,588,849               $49,560        69
                  Program
                  (OAS-RA-13-31)

  Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013             19
                                            Better                       Un-
Date              Recovery Act              Use of            Questioned Supported           Page
Issued            Reports                   Funds             Costs      Costs

         Energy Efficiency and Conservation Block Grant Program Reports

                  South Carolina
                  Energy Office –
                  Energy Efficiency
                  and Conservation
                  Block Grant
May 14, 2013      Program Funds                                                                  70
                  Provided by the
                  American Recovery
                  and Reinvestment
                  Act of 2009
                  (OAS-RA-13-21)
                  Commonwealth of
                  Puerto Rico Energy
                  Affairs
                  Administration –
                  Energy Efficiency
                  and Conservation
Jul 15, 2013      Block Grant                                                                    70
                  Program Funds
                  Provided by the
                  American Recovery
                  and Reinvestment
                  Act of 2009
                  (OAS-RA-13-27)
                  Costs Incurred by
                  Selected Tribal
                  Energy Efficiency
Jul 18, 2013      and Conservation                                   $518,994                    71
                  Block Grant
                  Recipients
                  (OAS-RA-13-28)




  Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   20
                                            Better                       Un-
Date              Recovery Act              Use of            Questioned Supported           Page
Issued            Reports                   Funds             Costs      Costs

                         Weatherization Assistance Program Reports

                  Travis County
                  Health & Human
                  Services and
                  Veterans Services
Apr 18, 2013      Weatherization                                                                 72
                  Assistance Program
                  Funds Provided by
                  the ARRA of 2009
                  (OAS-RA-13-18)
                  Area Community
                  Services
                  Employment and
                  Training Council –
                  Weatherization
                  Assistance Program
Jun 18, 2013                                                                                     72
                  Funds Provided by
                  the American
                  Recovery and
                  Reinvestment Act
                  of 2009
                  (OAS-RA-13-23)
                  Southwest
                  Michigan
                  Community Action
                  Agency –
                  Weatherization
Jun 18, 2013      Assistance Program                                    $1,633                   73
                  Funds Provided by
                  the American
                  Recovery and
                  Reinvestment Act
                  of 2009
                  (OAS-RA-13-24)




  Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   21
                                            Better                       Un-
Date              Recovery Act              Use of            Questioned Supported                  Page
Issued            Reports                   Funds             Costs      Costs
                  The Department of
                  Energy's
                  Weatherization
                  Assistance Program
                  Funded under the
Jun 18, 2013                                                         $115,800                           73
                  American Recovery
                  and Reinvestment
                  Act for the State of
                  Michigan
                  (OAS-RA-13-25)
                  Alamo Area
                  Council of
                  Governments –
                  Weatherization
Sep 19, 2013      Assistance Program                                 $168,754
                  Funds Provided by                                                                     74
                  the American
                  Recovery and
                  Reinvestment Act
                  of 2009
                   (OAS-RA-13-30)

                                   State Energy Program Reports

                  Selected Sub-
                  grantees of the
                  Department of
                  Energy's American
                  Recovery and
Apr 30, 2013                                                         $186,000         $2,000,000        75
                  Reinvestment Act
                  of 2009 – Illinois
                  State Energy
                  Program
                  (OAS-RA-13-19)




  Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013          22
RESULTS

Congressional Hearings

During this reporting period, the Inspector General testified at three hearings, as noted below:

       Senate Committee on Homeland Security and Governmental Affairs, Subcommittee on
        Financial and Contracting Oversight on June 27, 2013. The hearing was entitled
        "Contract Management by DOE".

       House Committee on Energy and Commerce, Subcommittee on Oversight and
        Investigations on July 24, 2013. The hearing was entitled "DOE Oversight: What is
        Necessary to Improve Project Management and Mission Performance".

       House Committee on Oversight and Government Reform on August 1, 2013. The
        hearing was entitled "Management Alert: Prohibited Personnel Practices at Bonneville
        Power Administration".


Legislative and Regulatory Reviews
The Inspector General Act of 1978, as amended, requires the OIG to review and comment upon
legislation and regulations relating to Department programs and to make recommendations
concerning the impact of such legislation or regulations on Departmental economy and
efficiency. During this reporting period, the OIG reviewed 28 pieces of proposed
legislation/regulations.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    23
Reports Lacking Management Decision
The Department has a system in place to track audit and inspection reports and management
decisions. Its purpose is to ensure that recommendations and corrective actions indicated by
audit agencies and agreed to by management are addressed as efficiently and expeditiously as
possible. Listed below are the 3 audit reports over 6 months old that were issued before the
beginning of the reporting period for which no management decision had been made by the end
of the reporting period. The reason a management decision had not been made and the estimated
date by which a management decision will be made is described in the table below.

                                                                                          Estimated
Date                                          Status of Management                        Date for
                   Report Title
Issued                                        Decision                                    Management
                                                                                          Decision
                   Use of                     The Department is working with the
                   Noncompetitive             OIG to identify what actions are
                   Procurements to            needed to address the OIG's concerns
Apr 10, 2012       Obtain Services at         regarding related-party transactions         Mar 31,2014
                   the Savannah River         between the contractor and its
                   Site                       corporate parents.
                   (DOE/IG-0862)
                   The Department of          The finalization of the management
                   Energy’s Clean             decision on this report is awaiting
                   Cities Alternative         review and concurrence by the
                   Fuel Vehicle Grant         necessary Department elements.
May 22, 2012       Program Funded                                                          Oct 31, 2013
                   under the American
                   Recovery and
                   Reinvestment Act
                   (OAS-RA-12-12)
                   Efforts by the             The Office of the Chief Information
                   Department of              Officer has developed a proposed
                   Energy to Ensure           corrective action plan to address the
May 25, 2012       Energy-Efficient           OIG recommendations, which is under          Oct 25, 2013
                   Management of its          review by Departmental management.
                   Data Centers
                   (DOE/IG-0865)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013       24
Prior Significant Recommendations Not Implemented
The Department closed 159 recommendations in the past 6 months. However, as of
September 30, 2013, 102 recommendations associated with 40 OIG reports had not been fully
implemented within 12 months from the date of the report issuance. Although the management
decision and corrective action process are under the purview of the Department, the OIG is
committed to working with management to facilitate closure of these recommendations. We also
recognize that certain initiatives will require long-term, sustained, and concerted efforts. The
table below identifies the 40 audit and inspection reports with recommendations that have not
been fully implemented within 12 months from the date of report issuance.

The Department records OIG recommendations in its system by program office. Therefore, a
single recommendation made by the OIG could result in multiple recommendations in the
system.

    Date                                                                        # of Open
   Issued          Report Title                                             Recommendations
                   Assessment of Changes to the Internal Control
                   Structure and Their Impact on the
                   Allowability of Cost Claimed by and
                   Reimbursed to TRW Environmental Safety
 Mar 12, 2002      Systems, Inc. Under Department of Energy                               2
                   Contracts No. DE-AC01-91RW00134 and
                   No. DE-AC08-RW00134 (WR-V-02-03)
                   Summary Not Publically Available – Official
                   Use Only
                   Assessment of Changes to the Internal Control
                   Structure and Their Impact on the
                   Allowability of Costs Claimed by and
                   Reimbursed to Sandia Corporation Under
 Dec 20, 2005                                                                             1
                   Department of Energy Contract No. DE-
                   AC04-94AL85000 (OAS-V-06-06)
                   Summary Not Publically Available – Official
                   Use Only
                   Assessment of Changes to the Internal Control
                   Structure and their Impact on the Allowability
                   of Costs Claimed by and Reimbursed to
                   Sandia Corporation under Department of
 Jan 16, 2007                                                                             1
                   Energy Contract No.DE-AC04-94AL85000
                   (OAS-V-07-05)
                   Summary Not Publically Available – Official
                   Use Only




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013       25
    Date                                                                        # of Open
   Issued          Report Title                                             Recommendations
             Sandia National Laboratory's Safety Practices
             (INS-L-07-11)
Sep 28, 2007                                                                              1
             Summary Not Publically Available – Official
             Use Only
Dec 17, 2007 Beryllium Surface Contamination at the Y-12                                  1
             National Security Complex (DOE/IG-0783)
             The Department's Progress in Meeting Los
Apr 11, 2008 Alamos National Laboratory Consent Order                                     1
             Milestones (DOE/IG-0793)
             Assessment of Changes to the Internal Control
             Structure and Their Impact on the
             Allowability of Costs Claimed by and
             Reimbursed to Sandia Corporation, under the
May 07, 2008 Department of Energy Contract, DE-AC04-                                      1
             94AL85000 for Fiscal Year 2006
             (OAS-V-08-09)
             Summary Not Publically Available – Official
             Use Only
             Management Controls over Monitoring and
Jul 14, 2008 Closeout of Small Business Innovation                                        1
             Research Phase II Grants (OAS-M-08-09)
             Assessment of Changes to the Internal Control
             Structure and Their Impact on the
             Allowability of Costs Claimed by and
             Reimbursed to Los Alamos National
             Laboratory under Department of Energy
Aug 24, 2009                                                                              2
             Contract No. DE-AC52-06NA25396 from
             June 1, 2006 to September 30, 2007
             (OAS-V-09-10)
             Summary Not Publically Available – Official
             Use Only
             Management Controls over Selected Aspects
Nov 13, 2009 of the Department of Energy's Human                                          2
             Reliability Program (OAS-M-10-01)
             Management Letter on the Audit of the
             Department of Energy's Consolidated
Dec 22, 2009                                                                              1
             Financial Statements for Fiscal Year 2009
             (OAS-FS-10-03)
Jul 29, 2010 Severance Repayments at the Savannah River                                   1
             Site (INS-O-10-02)



Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013       26
    Date                                                                        # of Open
   Issued          Report Title                                             Recommendations
                   Audit Coverage of Cost Allowability for
                   Bechtel SAIC Company, LLC during Fiscal
                   Years 2004 through 2009 Under Contract No.
 Jul 29, 2010                                                                             2
                   DE-AC28-01RW12101 (OAS-V-10-15)
                   Summary Not Publically Available – Official
                   Use Only
                   Follow-up Audit on Retention and
 Sep 03, 2010      Management of the Department of Energy's                               2
                   Electronic Records (DOE/IG-0838)
 Sep 23, 2010      The Department of Energy's Audit Resolution                            2
                   and Follow-up Process (DOE/IG-0840)
                   Audit Coverage of Cost Allowability for
                   Sandia Corporation During Fiscal Years 2007
                   AND 2008 under Department of Energy
 Oct 05, 2010      Contract NO. DE-AC04-94AL85000                                         1
                   (OAS-V-11-01)
                   Summary Not Publically Available – Official
                   Use Only
 Oct 22, 2010      The Department's Unclassified Cyber Security                           1
                   Program – 2010 (DOE/IG-0843)
                   Management Letter on the Audit of the
                   Department of Energy's Consolidated
 Dec 20, 2010                                                                             2
                   Financial Statements for Fiscal Year 2010
                   (OAS-FS-11-05)
                   Information Technology Management Letter
                   on the Audit of the Department of Energy's
                   Consolidated Balance Sheet for Fiscal Year
 Dec 21, 2010                                                                             2
                   2010 (OAS-FS-11-04)
                   Summary Not Publically Available – Official
                   Use Only
                   The Department of Energy's Loan Guarantee
 Mar 03, 2011      Program for Clean Energy Technologies                                  1
                   (DOE/IG-0849)
                   Security Planning for National Security
 Apr 15, 2011      Information Systems at Lawrence Livermore                              1
                   National Laboratory (OAS-M-11-03)
                   Management Letter- Uranium Enrichment
 Jun 14, 2011      Decontamination and Decommissioning                                    1
                   Fund's Fiscal Year 2010 Financial Statement
                   Audit (OAS-FS-11-07)



Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013       27
    Date                                                                        # of Open
   Issued          Report Title                                             Recommendations
                   Organizational Conflicts of Interest Program
 Jul 13, 2011      at Sandia National Laboratories                                        1
                   (DOE/IG-0853)
                   The Department of Energy's Weatherization
 Sep 19, 2011      Assistance Program under the American                                  1
                   Recovery and Reinvestment Act in the State
                   of Tennessee (OAS-RA-11-17)
 Oct 20, 2011      The Department Unclassified Cyber Security                             3
                   Program-2011 (DOE/IG-0856)
                   Information Technology Management Letter
                   on the Audit of the Department of Energy's
                   Consolidated Balance Sheet for Fiscal Year
 Dec 21, 2011                                                                             10
                   2011 (OAS-FS-12-04)
                   Summary Not Publically Available – Official
                   Use Only
                   Audit Coverage of Cost Allowability for
                   Savannah River Nuclear Solutions, LLC under
                   Department of Energy Contract No. DE-
 Jan 20, 2012      AC09-08SR22470 during Fiscal Year 2009                                 1
                   (OAS-V-12-03)
                   Summary Not Publically Available – Official
                   Use Only
                   Management Letter on the Audit of the
                   Department of Energy's Consolidated
 Feb 06, 2012                                                                             21
                   Financial Statements for Fiscal Year 2011
                   (OAS-FS-12-05)
 Feb 23, 2012      The Department's Configuration Management                              1
                   of Non-Financial Systems (OAS-M-12-02)
                   Southwestern Federal Power System's Fiscal
 Mar 08, 2012      Year 2006, 2007, 2008 and 2009 Financial                               1
                   Statement Audits (OAS-FS-12-06)
                   Management of Bonneville Power
 Mar 26, 2012      Administration's Information Technology                                2
                   Program (DOE/IG-0861)
                   Department of Energy's Isotope Development
 Mar 28, 2012      and Production for Research and Applications                           2
                   Program's Fiscal Year 2009 Balance Sheet
                   Audit (OAS-FS-12-08)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013        28
    Date                                                                        # of Open
   Issued          Report Title                                             Recommendations
                   Audit Coverage of Cost Allowability for Los
                   Alamos National Laboratory During Fiscal
                   Years 2008 and 2009 under Department of
 Apr 03, 2012      Energy's Contract No.DE-AC52-06NA25396                                  3
                   (OAS-V-12-05)
                   Summary Not Publically Available – Official
                   Use Only
             The Department of Energy's $12.2 Billion
Apr 25, 2012 Waste Treatment and Immobilization Plant-                                     2
             Quality Assurance of Black Cells Vessels
             (DOE/IG-0863)
May 31, 2012 Integrated Safety Management at Sandia                                        5
             National Laboratories (DOE/IG-0866)
             The National Nuclear Security Administration
             (NNSA) Contractors' Disability Compensation
Jun 18, 2012                                                                               6
             and Return-to-Work Programs
             (DOE/IG-0867)
Jun 29, 2012 Office of Secure Transportation Capabilities                                  4
             (OAS-M-12-05)
             Audit Coverage of Cost Allowability for
             Battelle Energy Alliance, LLC under
             Department of Energy Contract No. DE-
Aug 01, 2012 AC07-05ID14517 during Fiscal Year 2010                                        1
             (OAS-V-12-09)
             Summary Not Publically Available – Official
             Use Only
              Special Report on Inquiry into the Security
 Aug 29, 2012 Breach at the National Nuclear Security                                      4
              Administration's Y-12 National Security
              Complex (DOE/IG-0868)
              Opportunities for Energy Savings at
 Aug 31, 2012 Department of Energy Facilities                                              4
              (DOE/IG-0869)

                   Total Open Recommendations                                             102




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013         29
    Audit and Inspection Reports with
    Recommendations for Better Use of Funds
    April 1 – September 30, 2013
    The following table shows the total number of audit and inspection reports and the total dollar
             value of the recommendations that funds be put to better use by management.


                                                         Total                   Better Use of Funds
                                                         Number
    A. Reports issued before the reporting
       period that include recommendations
       for better use of funds for which                          131                     $538,795,437
       decisions on dollars have not been
       made:
    B. Reports issued during the reporting
       period that include recommendations
       for better use of funds (regardless of                      6                       $85,924,162
       whether a decision on dollars has been
       made):
         Subtotals (A + B)                                        19                      $624,719,599

    C. Reports that include recommendations
       for better use of funds for which a
                                                                  22                       $88,759,344
       decision on dollars was made during
       the reporting period:
         (i) Agreed to by management:                                                         $1,922,491
         (ii) Not agreed by management:                                                    $86,836,853
    D. Reports that include recommendations
         for better use of funds for which
         decisions on dollars have not been                   17                $535,960,255
         made at the end of the reporting
         period:
    Better Use of Funds: Funds that could be used more efficiently by implementing recommended
    actions.
    Management decision: Management’s evaluation of the finding and recommendations included in
    the audit report and the issuance of a final decision by management concerning its response.
1
  Includes reports for which the Department may have made some decisions on dollars but not all issues within the
  report have been resolved.
2
 Does not include reports for which the Department has made decisions on some aspects of the report but not all.




    Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013                30
Audit and Inspection Reports with
Questioned and/or Unsupported Costs
April 1 – September 30, 2013
     The following table shows the total number of audit and inspection reports and the total dollar value of
                                      questioned and/or unsupported costs.
                                              Total           Questioned             Unsupported              Total
                                              Number          Costs                  Costs                    Costs
    A. Reports issued before the
       reporting period that include
       questioned and/or unsupported               331         $1,140,951,336            $15,687,500           $1,156,638,836
       costs for which decisions on
       dollars have not been made:
    B. Reports issued during the
       reporting period that include
       questioned or unsupported
                                                   20           $265,120,941             $2,049,560             $267,170,501
       costs (regardless of whether a
       decision on dollars has been
       made):
       Subtotals (A + B)                           53          $1,406,072,277            $17,737,060           $1,423,809,337
    C. Reports that include
       questioned and/or unsupported
       costs for which a decision on               52              $216,178                    $0                 $216,178
       dollars was made during the
       reporting period:
        (i) Value of disallowed costs:                              $9,449                     $0                   $9,449
        (ii) Value of costs not
                                                               $206,729               $0                $206,729
        disallowed:
    D. Reports that include
        questioned and/or unsupported
        costs for which decisions on
                                                48         $1,405,856,0993      $17,737,060         $1,423,593,159
        dollars have not been made at
        the end of the reporting
        period:
    Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) or an alleged violation of law,
    regulation, contract, etc.
    Unsupported costs: A cost that is not supported by adequate documentation.
    Management decision: Management’s evaluation of the finding and recommendations included in the audit
    and inspection report and the issuance of a final decision by management concerning its response.
1
  Includes reports for which the Department may have made some decisions on dollars but not all issues within the report have
  been resolved.
2
  Does not include reports for which the Department has made decisions on some aspects of the report but not all.
3
  Includes $3.45M from report DOE/IG-0882 that was inadvertently omitted from the previous report.



         Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013                 31
     Investigative Activity
     April 1 – September 30, 2013
     CASE ACTIVITY

     Cases open as of April 1, 2013                                                                               2481

        Cases opened during period                                                                                 52

        Cases closed during period                                                                                 64

     Multi-Agency Task Force Cases Opened                                                                          20

     Qui Tam2 investigations opened during period                                                                   3

        Total Open Qui Tam investigations as of September 30, 2013                                                 14

     Cases currently open as of September 30, 2013                                                                236

     IMPACT OF INVESTIGATIONS

     Administrative discipline and other management actions                                                        23

     Recommendations to management for positive change and other actions                                           43

     Suspensions/Debarments                                                                                        29

     Accepted for prosecution3                                                                                     16

     Indictments                                                                                                   15

     Criminal convictions                                                                                          12

     Pre-trial diversions                                                                                           0

     Civil actions                                                                                                  2

     Total Dollar Impact4 (Fines, Settlements, Recoveries)                                                 $7,820,662
 1
   Two cases were incorrectly reported as open in the last reporting period. As a result, the previous report incorrectly indicated
   250, rather than 248, open cases.
 2
   For more information on Qui Tams, go to: http://www.justice.gov/usao/eousa/foia_reading_room/usam/title9/crm00932.htm
 3
   Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting
   period.
 4
   Some of the money collected was the result of investigations involving multiple agencies.



Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013                                 32
Hotline Activity
April 1 – September 30, 2013
Total Hotline Contacts
                                                                                           3,338
   Hotline contacts resolved immediately/redirected/no further action                      3,153

   Hotline contacts predicated for evaluation                                                  185

Total Hotline Predications Processed this Reporting Period                                     202

   Hotline predications transferred to OIG Program Office                                      21
   Hotline predications referred to Department management or other entity for
                                                                                               89
   information/action
   Hotline predications closed based upon preliminary OIG activity and review                  86

   Hotline predications awaiting referral (as of 9/30/13)                                       0

   Hotline predications open at the end of the reporting period                                 6




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   33
Whistleblower Retaliation Complaints
April 1 – September 30, 2013
Recovery Act Whistleblower Retaliation Complaints received                                      1

Accepted complaints carried over from prior period(s)                                           1

Disposition of Whistleblower Retaliation Complaints

    Reports Issued                                                                              0

    Complaints Dismissed                                                                        0

        Elected another forum                                                                   0

        Complaints withdrawn                                                                    0

        Upon receipt of Complaint, determined not related to covered funds at the outset        0

        After investigation, determined not related to covered funds after investigation        0

    Recovery Act Complaints that received extensions                                            0




 Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   34
Peer Reviews Conducted by OIG
April 1 – September 30, 2013
    Type of                  Date of Peer Review                     OIG                  Outstanding
    Review                                                         Reviewed             Recommendations
    Audits                None this reporting period
 Investigations           None this reporting period


Peer Reviews Conducted of OIG
April 1 – September 30, 2013
    Type of             Date of Peer Review              Reviewing        Frequency           Outstanding
    Review                                                 OIG           Requirement        Recommendations
    Audits           None this reporting period
 Investigations      None this reporting period




  Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013          35
SUMMARIES

Investigative Outcomes
Sentencing in Access Device Fraud Investigation
A former Department subcontractor employee was sentenced to 10 years incarceration, 5 years
probation, and 1 year parole, after pleading guilty to multiple counts of fraud and conspiracy.
The investigation determined the subcontractor employee provided thousands of serial numbers
for Department-owned computers to another individual not affiliated with the Department. The
serial numbers were then used by the second individual to fraudulently obtain computer parts
valued at approximately $1.6 million through manufacturer warranty replacement parts that were
later sold for personal gain.


Actions in California Weatherization Fraud and Bribery Investigation
A former California non-profit agency fiscal officer submitted a plea agreement to 117 counts of
corporate fraud and 75 counts of submitting false claims on weatherization contract work.
Additionally, a former California non-profit agency manager submitted a plea agreement for two
counts of submitting false claims on weatherization contract work. As previously reported, the
investigation determined the fiscal officer, weatherization manager, and former president of the
non-profit agency solicited and accepted bribes from a subcontractor totaling approximately $1.2
million. Additionally, they submitted inflated claims to the State of California, resulting in
overbilling to the Department and U.S. Department of Health and Human Services
weatherization programs by approximately $440,000. This is a joint investigation with the
Federal Bureau of Investigation. The investigation is ongoing.


Recovery of Funds from American Recovery and Reinvestment Act Sub-
grantee
A recipient of the Recovery Act grant funds completed a voluntary restitution payment totaling
$2,232,000. The investigation determined the sub-grantee falsified checks for the purchase of
biomass equipment, which it never acquired, in order to collect grant funds. The owner of the
sub-grantee company used the funds for personal expenses that included payments on a
penthouse condominium as well as a suite at a National Football League stadium.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   36
Actions in Per Diem Investigations
The OIG has continued to conduct a number of investigations involving improper per diem
payments at the Savannah River Site. Many of these payments involved Recovery Act funds.
During this reporting period, judicial and/or administrative action was taken against five
individuals. These actions included: a plea agreement, sentencing, court ordered restitution, and
debarments. To date, the per diem investigations have resulted in over $2.3 million in recoveries.


National Energy Technology Laboratory Takes Actions in Response to
Investigative Report to Management
The National Energy Technology Laboratory (NETL) responded to an Investigative Report to
Management that addressed the management of the annual Science Bowl, which was sponsored
by NETL. The investigation identified weak internal controls relating to NETL employees’
management of funds procured to support the Science Bowl. In response to the report, NETL
implemented new management controls to improve oversight of the administration of
educational activities. Additionally, NETL provided training to employees who support
educational activities such as the Science Bowl.


The Office of Energy Efficiency and Renewable Energy Takes Action in
Response to Investigative Report to Management
The Office of Energy Efficiency and Renewable Energy responded to an Investigative Report to
Management that addressed OIG concerns regarding a State of Michigan subgrantee’s
procedures for determining Weatherization Assistance Program (Weatherization Program)
eligibility. The investigation found that the subgrantee failed to properly determine eligibility
requirements for some Weatherization Program applications. In response to the report, the
subgrantee has since implemented a statewide web-based system for Weatherization Program
application and eligibility processing, improved the monthly billing review process, and
incorporated trend analysis into their technical monitoring to improve its administration of
Department grant funds.


Former Department Manager Sentenced
A former Department manager was sentenced to 1 year probation and was ordered to pay fines
and restitution and to perform 100 hours of community service after pleading guilty to one count
of theft of government funds. The investigation determined that the former manager falsified a
travel voucher and hotel receipts following official travel and received a travel reimbursement
for which he was not entitled.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   37
Settlement in Misuse of Federal Funds Investigation
An investigation was conducted on allegations that a corporation violated the False Claims Act
by using Federal funds for lobbying purposes. The investigation found that the corporation used
Department funds to lobby Congress and other Federal officials to increase funding for a
hazardous materials and emergency response training facility. The corporation agreed to pay
$1.1 million to settle the allegations.


Sentencing in Western Area Power Administration Theft
An individual with no Department affiliation was sentenced in the United States District Court
for the District of Colorado for theft of Government property and destruction of an energy
facility. The individual was sentenced to serve 36 months incarceration, 3 years of supervised
release, and was ordered to pay the Western Area Power Administration $19,722 in restitution.
The investigation determined the individual burglarized a substation in Sterling, Colorado, and
stole several items, including a vehicle. The OIG recovered the majority of the property, valued
at approximately $100,000.


Portsmouth Prime Contractor and Subcontractor Employees Terminated
Seven prime contractor employees and five subcontractor employees were terminated at the
Department’s Portsmouth site. The investigation determined that subcontracted radiological
control technicians, at the direction of their contractor managers, altered testing records of
portable radiation detection devices so they appeared to be calibrated when, in fact, they were
not.


Former American Recovery and Reinvestment Act Contractor Debarred
The Department’s Office of Procurement and Assistance Management debarred the owner of a
weatherization contracting company for a period of 3 years. The company was contracted by the
State of Kansas to provide weatherization services under the Recovery Act. As previously
reported, the investigation determined that the owner falsely certified the company’s employees
working on weatherization projects as being paid in accordance with minimum wage
requirements on its payroll reports. The owner entered into a pretrial diversion agreement for
submitting the falsified payroll reports.


Indictment in Computer Conversion/Resale Investigation
An individual with no Department affiliation was indicted by a Federal grand jury for wire fraud,
mail fraud, and aggravated identity theft. The investigation uncovered 13 allegedly fraudulent
non-profit entities established by the individual to obtain free computers and related equipment

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   38
the Government donates through the General Services Administration’s Computers for Learning
Program. After receiving the items, the individual sold them for profit on eBay and other online
sites. During the last 5 years, the fraudulent entities received computers and related equipment
with original acquisition values exceeding $25 million, including $7.5 million from the
Department sites.


Former Subcontractor Employee Debarred
In response to an Investigative Report to Management, a former subcontractor employee at the
Y-12 National Nuclear Security Complex was debarred for a period of 3 years. As previously
reported, the former subcontractor employee pled guilty to theft of Government property, and
was sentenced to 30 months probation and ordered to pay restitution and fines. The investigation
determined the employee stole approximately 1,400 pounds of copper wire from the Y-12 Site.


Former University of Kentucky Professor Indicted
A former University of Kentucky Professor was indicted by a Federal Grand Jury on one count
of theft of Government property. The investigation determined the professor cannibalized,
destroyed, and failed to return certain Government-owned scientific equipment, books, and
supplies valued at $506,657.62. All of the known missing equipment has been recovered by the
OIG.


Former Subcontractor Employee Debarred for Theft of Government
Property
In response to an Investigative Report to Management, a former subcontractor employee was
debarred from doing business with the Federal Government for a period of 3 years. As
previously reported, the former employee was convicted of the theft of approximately $21,000 of
Government-owned electronics equipment.


American Recovery and Reinvestment Act Weatherization Assistance
Program Sub-grantee and Official Debarred
In response to an Investigative Report to Management, a Washington, DC, a Recovery Act sub-
grantee and one of its executive officials were debarred from doing Government work for a
period of 3 years. As previously reported, the investigation determined the sub-grantee misused
$551,712 in Recovery Act funds to make up for budget shortfalls associated with unrelated
operational expenses.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   39
Guilty Plea in Embezzlement of American Recovery and Reinvestment Act
Funds
A former Finance Director for the Louisiana Association of Community Action Partners, Inc.,
pled guilty to embezzling $50,858 in Recovery Act funds in the Middle District of Louisiana.
The investigation determined that from September 2011 through November 2011, the former
Finance Director used her position to embezzle funds from these programs for personal use.


Guilty Verdict in Y-12 Destruction
Three individuals were found guilty of Destruction of National Defense Materials, Premises, or
Utilities and Damage to Government Property by a jury in the U.S. District Court for the Eastern
District of Tennessee. The investigation determined the individuals illegally entered the Y-12
National Security Complex in Oak Ridge, Tennessee, cut through fences, and caused damage to
the Highly Enriched Uranium Materials Facility.


Settlement in Misuse of Federal Funds Investigation
An investigation was conducted into allegations that a corporation violated the False Claims Act
by using Federal funds for lobbying purposes. The investigation found that the corporation used
Department funds to lobby Congress and other Federal officials to increase funding for a
hazardous materials and emergency response training facility. The corporation agreed to pay
$1.1 million to settle the allegations.


Administrative Action Taken in American Recovery and Reinvestment Act
Weatherization Fraud Investigation
As a result of a joint investigation with the U.S. Department of Health and Human Services OIG,
and the State of Michigan’s Department of Human Services, a corrective action plan was issued,
which demanded the return of $186,934.99 in Department Recovery Act funds from a
Community Action Agency sub-recipient. The investigation determined that the Community
Action Agency improperly awarded a sole-source consultant contract and paid unauthorized
employee bonuses.


Two Former Contractor Employees Debarred
As a result of an Investigative Report to Management, the Department debarred two former
Department contractor employees for a period of 3 years. The investigation determined the
individuals possessed trailers, a large welder, and various power tools that had been stolen from
the Department’s Paducah Site.


Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   40
Former Hanford Site Contractor Sentenced in Purchase Card Investigation
The U.S. District Court for the Eastern District of Washington sentenced a former Department
contractor employee to 3 years supervised probation and 100 hours of community service after
the former contractor employee pled guilty to violating the Anti-Kickback Act. The
investigation determined the contractor employee offered and provided kickbacks to at least 14
Material Coordinators. The kickbacks included cash, tickets to sporting events, and gift cards.


Small Business Innovation and Research Grantee Suspended
A Small Business Innovation and Research (SBIR) grant recipient company and a Principal
Investigator were suspended indefinitely from contracting with the U.S. Government. The
investigation’s interim findings revealed the principal investigator made materially false and
fraudulent statements in SBIR grant applications that were submitted to the Department and
other agencies. Criminal prosecution of the principal investigator is pending with the U.S.
Attorney’s Office for the Southern District of Texas. This is an ongoing joint investigation with
the National Science Foundation OIG, the Defense Criminal Investigative Service, and the
NASA OIG.


Conviction in Child Pornography Investigation
A former Department employee was convicted in the U.S. District Court for the Northern
District of California following a trial for possession of child pornography. The investigation
determined the former Department employee viewed and downloaded numerous images of child
pornography onto his Department-issued computer. A search warrant for his residence resulted
in the discovery of a larger child pornography collection. Sentencing is scheduled for December
2013. This conviction carries a 10-year minimum sentence.


Reimbursement to Government for Science Misconduct
A Department contractor issued a $756,533 reimbursement to the Government for science
misconduct by a former Principal Investigator (PI). The OIG investigated allegations that the PI
fabricated data and falsely claimed project milestones were being met when, in fact, they were
not. During the investigation, the PI admitted to falsifying progress reports and misrepresenting
claims regarding construction of the project deliverable, a superconducting quantum interface
device. This investigation is ongoing.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   41
Settlement Agreement with Department Vendor
An investigation was conducted on allegations that a Department vendor submitted false claims
for payment, and engaged in improper product substitution involving parts such as o-rings,
gaskets, and mechanical seals. The investigation identified overbilling, product substitution, and
falsification of batch number/cure dates. The Department vendor and its four principals agreed to
pay $750,000 to the United States to settle the allegations. This was a joint investigation with the
Tennessee Valley Authority OIG, U.S. Air Force Office of Special Investigations, and Defense
Criminal Investigative Service.


Community Based Organization Suspended in American Recovery and
Reinvestment Act Weatherization Fraud Investigation
In response to an Investigative Report to Management, a community organization and two of its
officers were suspended by the Department pending the outcome of the ongoing investigation.
As previously reported, the investigation determined that two officers of the community
organization converted approximately $150,000 of Recovery Act weatherization grant monies
for their personal use.


Subcontractor Enters into a Voluntary Exclusion Agreement with the
Department
In response to an Investigative Report to Management, a former weatherization subcontractor
agreed to a voluntary exclusion agreement with the Department. As previously reported, the
investigation determined that the subcontractor misappropriated approximately $30,000 in
weatherization rebate funds. The exclusion agreement was accepted after consultation between
the Department, the Assistant United States Attorney, and the subcontractor's counsel.


Sentencing in American Recovery and Reinvestment Act Grant Investigation
The owner of a Department subcontractor company was sentenced by a Travis County, Texas
District Court Judge to 15 years incarceration and ordered to pay $1.8 million in restitution. As
previously reported, the investigation determined the owner and a former State of Texas
employee conspired to submit fraudulent documents and false claims relating to wind energy
systems to the Department to obtain approximately $2 million in Recovery Act funds.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    42
Former Western Area Power Administration Employee Sentenced
A former Western Area Power Administration employee was sentenced in U.S. District Court,
District of Montana, to 4 years probation, and ordered to pay a $3,000 fine and restitution to the
Department in the amount of $83,700. As previously reported, the OIG investigation determined
that from 2001 to 2012, the individual defrauded the U.S. Department of Labor’s Office of
Workers Compensation Program by not reporting his self-employment income, resulting in long-
term disability overpayments of approximately $275,000. This was a joint investigation with
Department of Labor OIG.


Settlement Agreement with Energy Efficiency and Conservation Block Grant
Recipient
In response to an Investigative Report to Management, the Department accepted a $31,783
settlement agreement with an Energy Efficiency and Conservation Block Grant (EECBG)
recipient. The OIG investigation determined the EECBG recipient hired consultants to assist in
awarding of an EECBG project. The project was subsequently awarded to another company
employing the same consultants. These actions violated a grant provision concerning conflicts of
interest.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   43
Audit Reports

The Department of Energy's Use of the Environmental Management Waste
Management Facility at the Oak Ridge Reservation
The Environmental Management Waste Management Facility (EMWMF) is an above-ground
waste disposal facility designed to meet the requirements of the Comprehensive Environmental
Response, Compensation and Liability Act of 1980. The Oak Ridge Office of Environmental
Management (OREM) manages the Department's contract with URS | CH2M Oak Ridge, LLC,
which has operated EMWMF since August 2011. We found that OREM had not maximized its
use of available capacity at EMWMF, and as a consequence, may incur more than $14 million in
unnecessary disposal costs. Specifically, OREM permitted its contractors to send minimally
contaminated waste to EMWMF that may have otherwise been acceptable for disposal in the
sanitary landfill at a much lower cost per unit. For example, contractor officials told us that from
FYs 2002 through 2011, they had disposed of 140,000 cubic yards of material (minimally
contaminated waste plus required fill) at EMWMF that likely could have been disposed of in the
sanitary landfill at a much lower cost per unit. The Department had not established site-specific
surface authorized limits for determining when certain types of minimally contaminated waste
could be disposed of in sanitary landfills rather than in EMWMF. In the absence of such site-
specific authorized limits, certain surface-contaminated wastes have been disposed of at
EMWMF that potentially could have been safely disposed at sanitary landfills. Maintaining this
approach could ultimately and unnecessarily utilize 11 percent of EMWMF's waste disposal
capacity. During the course of our audit, URS | CH2M Oak Ridge, LLC recognized the issues
we discovered and implemented procedures compliant with Department and landfill permit
requirements to allow more waste to be disposed in the sanitary landfill; however, we believe
that additional action is necessary to improve efficiency of waste disposal operations and
conserve EMWMF capacity. The Office of Environmental Management generally concurred
with the report and its comments were responsive to our recommendations. (OAS/IG-0883)


Allocation of Direct and Indirect Costs – Cost Accounting Standard 418 – at
Lawrence Livermore National Laboratory
We contracted with an independent certified public accounting firm, KPMG, to determine if
Lawrence Livermore National Laboratory's (Livermore) policies, procedures, and practices used
to estimate, accumulate, and report costs on Government contracts and subcontracts complied
with the requirements of Cost Accounting Standard (CAS) 418 for FY 2012. CAS 418 requires
contractors to be consistent in the way they classify costs as direct or indirect and to maintain a
written statement of accounting policies and practices for classifying direct and indirect costs,
establishes criteria for accumulating indirect costs in homogeneous indirect cost pools, and
provides guidance on allocating indirect cost pools to cost objectives in reasonable proportion to
the beneficial or causal relationships of the pooled costs to cost objectives. Livermore's written
policies and procedures relevant to CAS 418 compliance include cost accounting changes,
determining direct versus indirect costs, monitoring and processing cost transfers, time and effort

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    44
reporting, monitoring and liquidating indirect variances, and policies and procedures relating to
the composition of each indirect cost pool. KPMG found that Livermore's policies and
procedures were complete with regard to the areas required to support compliance with CAS
418. KPMG tested Livermore's current use of its policies and procedures governing cost
accounting changes, monitoring and liquidating indirect rate variances, monitoring and
processing cost transfers, and the composition of homogeneous cost of select indirect cost pools.
KPMG did not identify any findings as a result of the work performed; therefore, no
recommendations were made in the report. (OAS-L-13-07)


Management of Naval Reactors' Cyber Security Program
The Naval Reactors Program (Naval Reactors), an organization within the National Nuclear
Security Administration, provides the military with safe and reliable nuclear propulsion plants to
power warships and submarines. Naval Reactors maintains responsibility for activities
supporting the United States Naval fleet nuclear propulsion systems, including research and
design, operations and maintenance and the ultimate disposition of the nuclear propulsion
plants. Both the Department and the Department of Navy fund Naval Reactors. To fulfill its
mission, Naval Reactors utilizes numerous information systems that reside on both classified and
unclassified networks. Previous OIG reviews of Naval Reactors related to our Federal
Information Security Management Act of 2002 evaluations identified certain security
weaknesses related to access controls and contingency planning.

We found that Naval Reactors' vulnerability management controls and processes were not fully
effective in applying security patches for all desktop and network applications. For example,
although the program had taken action to correct the vast majority of vulnerabilities identified
during scans performed in July 2011, our current review disclosed 335 high and medium risk
vulnerabilities. Naval Reactors officials were unable to provide us with information regarding
the age of the identified weaknesses due to the lack of an adequate corrective action tracking
mechanism. Naval Reactors had made a number of enhancements to its cyber security program
over the past several years, however, we identified weaknesses related to vulnerability
management, access controls, incident response and security awareness training that could
negatively affect its security posture. For instance, controls over access to information and
systems at Naval Reactors were not always operating effectively. The weaknesses identified
occurred, in part, because Naval Reactors had not ensured that necessary cyber security controls
were fully implemented. Specifically, officials had not fully developed and/or implemented
policies and procedures related to vulnerability management, access controls, incident response
and cyber security training. In addition, Naval Reactors had not always effectively utilized Plans
of Action and Milestones to track, prioritize and remediate cyber security weaknesses. In
response, management generally concurred with the report's recommendations and indicated that
corrective actions had been taken or were planned to address the weaknesses identified.
(DOE/IG-0884)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   45
Management and Operating Contractors' Subcontract Audit Coverage
The Department employs 28 Management and Operating (M&O) contractors that perform
essential mission work under cost reimbursable contracts. To achieve the Department's mission,
M&O contractors often utilize the services of subcontractors, which are also funded by the
Department. When these subcontracts are structured as cost-type, including time and materials,
and cost reimbursable subcontracts, M&O contractors are contractually required to ensure that
associated costs incurred are audited to provide assurance that the costs are allowable. The
M&O contractors may use their internal audit staff, engage contract auditors, or use the services
of the Defense Contract Audit Agency to audit the subcontractors. Internally performed audits
must, at a minimum, meet professional standards prescribed by the Institute of Internal Auditors.
M&O contractors presumably rely on audits of subcontractors when completing required annual
certifications that all of their incurred costs are allowable. We identified contract management as
a management challenge in our report on “Management Challenges at the Department of
Energy” (DOE/IG-0874, October 2012). The Department has committed to improving contract
management and we recognize that such a significant issue requires a concerted effort over time.

The objective of this report was to highlight the issues we identified in previous reports and
stress the need for a top-down emphasis to ensure that all M&O contractors develop robust
procedures for subcontract audits. Between FY 2010 and 2012, we reported subcontract audit
weaknesses with nine M&O contractors. Subcontracts valued in excess of $906 million had not
been audited or were reviewed in a manner that did not meet audit standards. The subcontract
costs were not audited because the Department did not ensure that its M&O contractors
developed and implemented procedures to meet their contractual requirements. For example,
although the M&O contractors are contractually required to conduct or arrange for audits of their
cost-type subcontracts, Los Alamos National Laboratory’s approved audit strategy only required
audits of subcontracts with annual incurred costs that exceeded $15 million. Under this
threshold, only 2 of 1,404 subcontracts were required to be audited. We noted that while some
sites have taken action in response to our reports, we believe that a greater Department-wide
emphasis on auditing cost-type subcontracts is needed. In response to our report, management
concurred with the findings and recommendations and agreed to take corrective actions.
(DOE/IG-0885)


Home Office Expenses Submitted by Fluor Federal Services, Inc., on
Savannah River Nuclear Solutions, LLC's U.S. Department of Energy
Management & Operating (M&O) Contract No. DE-AC09-08SR22470
The Department awarded Management and Operating Contract No. DE-AC09-08SR22470 to
Savannah River Nuclear Solutions, LLC (SRNS), a for-profit joint venture, established between
Fluor Federal Services, Inc. (Fluor), Newport News Nuclear, Inc., and Honeywell International.
SRNS commenced performance on the M&O contract on August 1, 2008. Fluor has a majority
share in the joint venture.



Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   46
We contracted with an independent certified public accounting firm to assess the accuracy and
completeness of the results and conclusions reported by SRNS Internal Audit on its Corporate
Reachback Floor Check Review of invoices for loaned employees from Fluor. Additional testing
was performed on an invoiced Fluor "loaned employee" to determine whether home office
expenses were included in the invoiced costs, and if so, quantify the amount of questioned costs.
The SRNS contract, Clause H-20, entitled Home Office Expenses, states "Home office expenses,
whether direct or indirect, relating to activities of the Contractor are unallowable, except as
otherwise specifically provided in the Contract or specifically agreed to in writing by the
Contracting Officer consistent with DEAR 970.3102-3-70."

The firm concluded that the results and conclusions reported by SRNS Internal Audit on its
Corporate Reachback Floor Check Review of invoices for loaned employees from Fluor was
accurate and complete as they related to their audit objectives. The results disclosed that SRNS'
costs incurred for contract DE-AC09-08SR22470, for the period August 1, 2008 through August
21, 2012, included home office expenses of $1,256,481 and $36,763 in Facilities Capital Cost of
Money resulting from its use of Fluor loaned employees. Subsequent to the completion of audit
field work, the Savannah River Operations Office Contracting Officer initiated action to disallow
the $1,256,481 in home office expenses. Therefore, no recommendations were made in this
report. (OAS-L-13-08)


The Use of Staff Augmentation Subcontracts at the National Nuclear Security
Administration's Mixed Oxide Fuel Fabrication Facility
Shaw AREVA MOX Services, LLC (MOX Services) is responsible for the design and
construction of the National Nuclear Security Administration's (NNSA) nearly $5 billion Mixed
Oxide Fuel Fabrication Facility (MOX Project) at the Savannah River Site near Aiken, South
Carolina. The facility will remove impurities from surplus weapons-grade plutonium and mix it
with depleted uranium oxide to form fuel pellets for commercial nuclear power reactors.

MOX Services used staff augmentation subcontracts to fill professional, technical and
administrative support service positions on an as-needed basis on the MOX Project. According
to MOX Services officials, a shortage of qualified personnel in the local area necessitated the use
of "temporary" subcontract employees. We received a complaint alleging a variety of problems
involving temporary living expenses, overtime hours, as well as the appropriateness of staff
augmentation labor rates.

We substantiated the allegation that MOX Services billed and NNSA reimbursed payments to
subcontractors for excessive temporary living expenses. Specifically, since January 2007, MOX
Services was reimbursed about $3.7 million for inappropriate temporary living expenses for staff
augmentation employment. Additionally, we did not substantiate the allegations concerning the
pricing and payment of regular and overtime hours for staff augmentation subcontracts from FYs
2007 through 2011.

These excessive and unnecessary costs occurred, at least in part, because MOX Services
eliminated the portion of its policy that limited the cost and duration of staff augmentation
Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    47
subcontract employee temporary living expenses. This was compounded by the fact that NNSA
had not effectively monitored MOX Services' management of the staff augmentation
subcontracts. In response, NNSA management concurred with the report's recommendations and
identified actions it had taken or planned to improve management of the temporary living
expense component of staff augmentation subcontracts at the MOX Project. (OIG/IG-0887)


The Office of Environmental Management's Disposition of Transuranic
Waste
The Waste Isolation Pilot Plant is the Department’s underground repository for contact-handled
and remote-handled transuranic waste. The Waste Isolation Pilot Plant Land Withdrawal Act
limits its total capacity for transuranic waste to 175,600 cubic meters (m³), of which no more
than 7,080 m³ can be remote-handled waste. In October 1999, the New Mexico Environment
Department granted a Hazardous Waste Facility Permit to the Department to begin storage and
disposal of TRU waste, although remote-handled disposal did not commence until 2007.

In FY 2011, the Office of Environmental Management (EM) established a strategic goal, in
addition to operational goals, to complete disposition of 90 percent of the Department's legacy
transuranic waste by the end of FY 2015. While EM is also responsible for the transuranic waste
that the Department continues to generate, newly generated waste is not specifically included in
the strategic goal. To achieve the 90 percent goal, EM needed to dispose of approximately
40,000 m³ of waste, or an average of 8,000 m³ per year. The planned annual metric was reduced
to 6,000 m³ for FY 2012 and 4,500 m³ for FY 2013 because of funding limitations.

We found that while EM had made progress in meeting its operational disposal goals, it was not
on track to meet its goal to dispose of 90 percent of the Department's legacy transuranic waste by
the end of FY 2015. In particular, EM faces a number of challenges in meeting its planned 90
percent waste disposal goal by 2015. Additionally, without further modifications to the
repository or existing waste disposal practices, the Waste Isolation Pilot Plant may not have
capacity for disposal of the current remote-handled inventory. EM has identified alternative
actions to alleviate the challenges facing the transuranic waste disposition program.
(OAS-L-13-09)


Mitigation of Natural Disasters at Los Alamos National Laboratory
Los Alamos National Laboratory (Los Alamos) is at some risk of seismic events and susceptible
to forest fires, including those started by lightning. Since 2000, there have been two major forest
fires that threatened Los Alamos.

Although Los Alamos had made progress in upgrading existing nuclear facilities, concerns
remained regarding the mitigation of risks related to natural disasters. Specifically, we found
seismic issues affecting the Plutonium Facility that remain to be addressed. Additionally, we
found that fire protection and prevention vulnerabilities in Area G Waste Storage and Disposal
Facility (Area G) continue to exist. Further, we found that several known risks exist with
Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   48
compensatory measures implemented in Area G that may lessen their efficacy in mitigating
natural disasters. Los Alamos' processes and procedures have not always been fully effective in
ensuring that hazards, including natural disasters, are fully analyzed and effectively mitigated.
National Nuclear Security Administration officials responsible for overseeing Los Alamos
pointed out that decisions to budget and schedule mitigation measures are based on factors
including the probability of an event occurring, such as a seismic event, and whether a structure
is considered to be a permanent or limited life facility. While a number of compensatory and
corrective actions have been completed, in our view, further actions are needed to mitigate
existing vulnerabilities. Management concurred with the report's recommendations and
indicated that corrective actions have been or would be initiated to mitigate potential risks.
(OAS-M-13-04)


Fiscal Year 2011 Audit of the Work Performed Under the Work for Others
Program at the Lawrence Berkeley National Laboratory
The OIG contracted with an independent certified public accounting firm, KPMG, LLC (KPMG)
to determine whether Lawrence Berkeley National Laboratory (Berkeley) met the internal
control and compliance requirements established by the Department to achieve the current goals
and objectives of the Work for Others (WFO) Program.

KPMG concluded that, except for the finding detailed in the attached report, Berkeley
implemented internal controls and compliance procedures in FY 2011 that met the Department's
WFO Program requirements, as stated in Department regulations, guidance, and applicable
contract provisions. Specifically, KPMG found that costs relating to Berkeley's WFO support
organization, the Office of Sponsored Projects and Industry Partnerships, were included in the
general and administration cost pool that is allocated to both WFO projects and other Department
projects on an organization-wide basis, rather than using an allocation base that bears a more
direct causal beneficial relationship to the support organization's costs. KPMG estimated that if
the Department implemented a separate indirect rate for this support organization, the annual
savings would be approximately $400,000. Further, KPMG noted that corrective action from a
September 2010 Berkeley Internal Audit Division Time and Effort Reporting audit related to the
accuracy of labor distribution to WFO and the Department's non-WFO projects had not been
implemented as of October 31, 2012.

The Berkeley Site Office did not agree with the finding and recommendation made in the report,
and believes that the current allocation method complies with Cost Accounting Standards.
(OAS-L-13-10)


Follow-up Audit on Term Assignments of Contractor Employees
The Department frequently assigns facility contractor personnel to the Washington, DC, area on
a temporary basis when program officials consider it necessary to obtain technical expertise not
available locally. Commonly referred to as term assignments, the estimated cost of all such
assignments for FY 2012 was over $37 million, all of which was reimbursed by the Department.
Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   49
Federal officials authorizing such assignments are required to ensure that costs for assignees are
reasonable when compared to other means of acquiring the necessary knowledge and
experience.

The Department's management of term assignments had improved since the 2005 report.
However, additional opportunities exist to enhance the effectiveness and reduce the cost of the
program. Specifically, some allowances appeared excessive, and some varied significantly
between the facility contractors providing term assignees. Further, a cost analysis had not been
conducted to determine whether cost effective alternatives to term assignments were available,
although specifically required by existing Department policy.

The issues we discovered occurred, in part, because of inadequate controls and management
oversight. As a result of these lapses, the Department lacked assurance that the cost of technical
and program support provided by the facility contractor personnel assigned to Washington was
both reasonable and necessary and that this approach was the most efficient, least expensive
means of obtaining needed skills. Furthermore, inconsistencies in the dislocation allowances
authorized by site contractors likely resulted in unreasonable and unnecessary costs to the
Department.

Management concurred with the report's recommendations and identified actions it had taken or
planned to address our recommendations and to improve management of term assignments to the
Washington, DC, area. (DOE/IG-0890)


Safety Aspects of Wet Storage of Spent Nuclear Fuel
The Department is responsible for managing and storing spent nuclear fuel (SNF) generated by
weapons and research programs and recovered through nonproliferation programs. The SNF
consists of irradiated reactor fuel and cut up assemblies containing uranium, thorium and/or
plutonium. The Department stores 34 metric tons of heavy metal SNF primarily in two wet
storage basins located at the Savannah River Site and the Idaho National Laboratory.
Wet storage requires operational vigilance and reliance on mechanical systems to ensure the
safety of workers, the public and the environment. The risk associated with long-term wet
storage of SNF is well-demonstrated by the recent disaster in Japan. While not subject to
damage from tsunamis, environmental or mechanical issues are within the realm of possible
damage scenarios faced by the Department’s SNF storage facilities.

Because it lacks a clear disposition path, the Department had not developed definitive plans to
dispose of its SNF. In FY2010, the Department withdrew its intent to develop a geological
repository at Yucca Mountain, Nevada to dispose of SNF and high-level waste. Then in 2011,
the Department deferred processing aluminum-clad SNF, some of which is in wet storage, until
recommendations of the Blue Ribbon Commission on America’s Nuclear Future were issued and
evaluated. As a consequence, the Department determined it must maintain interim SNF wet
storage facilities longer than planned and until disposition options become available.



Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   50
Given the lack of disposition paths, the Department is taking steps to manage the safety of its
SNF wet storage basins, namely L-Basin and CPP-666. Our review revealed that, as required by
both Federal and Department regulations, program officials had analyzed the risks related to
storage, documented these analyses, and concluded that the continued use of the wet storage
facilities was appropriate. While the Savannah River Site has initiated activities designed to
support the prolonged storage of SNF in L-Basin, completion of these activities is being deferred
due to funding constraints. (OAS-L-13-11)


The Kansas City Responsive Infrastructure Manufacturing and Sourcing
Program
The Kansas City Plant, managed and operated by Honeywell Federal Manufacturing &
Technologies, LLC (Honeywell), is the Department's National Nuclear Security Administration's
(NNSA) primary production site for non-nuclear weapon products. As part of the Kansas City
Responsive Infrastructure Manufacturing and Sourcing (KCRIMS) Program, Honeywell is in the
process of relocating the Plant operations at the Bannister Federal Complex in Kansas City,
Missouri to the newly constructed National Security Campus. During and after the Plant
relocation, production shutdowns are required. Additionally, some manufacturing processes and
parts will have to be requalified at the Campus before the Plant can use the parts or deliver the
parts to other NNSA sites.

Our review indicated that Plant officials have established plans to ensure that non-nuclear
components needed to support the stockpile are available throughout the relocation and
requalification periods. Specifically, the Plant outsourced selected technologies and developed
plans to build-ahead non-nuclear components to meet projected demands.
Our review established that the Plant had started planning for requalification of manufacturing
processes to be used and parts to be manufactured at the Campus. We observed, however, that
some of the Engineering Evaluation Plans used to evaluate processes or parts for requalification
were missing information and will need to be updated on a schedule that meets production
requirements. Because the Requalification Readiness Assessments are currently underway, we
did not make any formal recommendations regarding the requalification of parts and processes.
However, we made suggestions to ensure that parts produced by the Plant after relocation will
meet the Design Agencies' requirements. (OAS-L-13-12)


Cost Transfers at the Department's Sodium Bearing Waste Treatment
Facility Construction Project
In 2005, the Department awarded the Idaho Cleanup Project contract to CH2M ♦ WG Idaho,
LLC (CWI) to remediate the Idaho National Laboratory, which included the Sodium Bearing
Waste Treatment Facility construction project. The primary mission of this facility was to treat
approximately 900,000 gallons of radioactive sodium bearing liquid waste at a Federal baseline
construction cost of $461 million, which was approved in December 2006. Due to significant


Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   51
cost escalation, the Department approved a revised Federal project baseline in January 2009, to a
cost of $571 million and a completion date of August 2011.

Between April and November 2010, CWI made seven funding determinations, transferring $13.1
million to other non-project operational accounts from the $571 million approved project cost.
In January 2011, the Department approved a revision to the project baseline that delayed project
completion to December 2011, but did not change the project's estimated costs. The Department
requested that the Office of Inspector General determine whether the transferred costs were
direct project costs that should have remained with the project.

We found that three of the seven cost transfers totaling $7.9 million represented direct costs of
the project, specifically, $3.8 million for a waste transfer line and tie-in, $4 million for
mineralization testing, and$107,000 for portable bathrooms. As such, we found that these costs
were not appropriately charged to the project because CWI did not consider all pertinent facts,
and we concluded that the costs should not have been transferred. Additionally, we found that
four of the seven cost transfers, valued at $5.2 million, were for activities that were not direct
project costs or had been appropriately shared pro rata with other projects in accordance with
Department and CWI accounting and project management principles. Management concurred
with the report's recommendations and identified actions it had taken to address the issues we
reported. (OAS-M-13-03)


Lawrence Livermore National Laboratory's Use of Time and Materials
Subcontracts
The mission of Lawrence Livermore National Laboratory (Livermore) is to strengthen the United
States' security through development and application of science and technology to enhance the
Nation's defense, reduce the global threat from terrorism and weapons of mass destruction, and
respond to scientific issues of national importance. Livermore is operated by Lawrence
Livermore National Security, LLC, for the Department's National Nuclear Security
Administration (NNSA). In accomplishing its mission, Livermore uses a variety of
subcontracting types, including time and materials subcontracts.

We found that Livermore had not always procured services through time and materials
subcontracts in the most effective and efficient manner. Our testing revealed that some sole
source justifications were not fully supported as required by Federal regulations and internal
policies and procedures. Specifically, we found that Livermore had not fully justified sole
source selection for 6 of 7 subcontracts included in our judgmental sample of 12 time and
materials subcontracts. We also found that in two of the sole source subcontracts, Livermore did
not perform an adequate price analysis. For instance, we determined that if Livermore had hired
a Chief of Staff at a rate similar to the highest rate of another Livermore Chief of Staff, it could
have saved about $533,423. Further, we estimated that had Livermore performed a more
thorough price analysis and reached an agreement for the lower rates at the beginning of the most
recent construction subcontract, it could have saved about $390,739. As a consequence, we
could not determine and Livermore did not demonstrate that the decision to award these
particular time and materials subcontracts was in the best interest of NNSA.
Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    52
This report is one in a series of reports that the OIG has issued highlighting concerns with
subcontracting by the Department's management and operating contractors. Management
concurred with the report's recommendations and proposed corrective actions that were
responsive to our recommendations. (OAS-M-13-06)


Southwestern Federal Power System's Fiscal Year 2012 Financial Statement
Audit
We contracted with the independent public accounting firm of KPMG LLP to conduct the audit
the Southwestern Federal Power System's (SWFPS) financial statements and reporting on
applicable internal controls and compliance with laws and regulations. KPMG LLP concluded
that the combined financial statements present fairly, in all material respects, the respective
financial position of the Southwestern Federal Power System's as of September 30, 2012 and
2011, and the results of its operations and its cash flow for the years then ended, in conformity
with U.S. generally accepted accounting principles.
The audit identified an internal control deficiency over Accounting for Utility Plant in which
depreciation for additions and betterments to existing plant in service was not recorded in
accordance with accounting policies. Additionally, an internal control deficiency over
Accounting Policies and Procedures was identified in which appropriate procedures to properly
accrue for accounts payable at year end were not in place. U.S. Army Corps of Engineers
management agreed with the findings and recommendations and agreed to take the necessary
corrective actions by June 30, 2014. (OAS-FS-13-13)


The Department of Energy's Appliance and Equipment Standards Program
The Energy Policy and Conservation Act of 1975 established a national-level energy
conservation program for major appliances and called for setting efficiency targets. The
Department’s) Appliance and Equipment Standards Program (Standards Program) is tasked with
administering these statutory requirements. Since 2010, the Office of Enforcement, within the
Office of General Counsel, has collected $5.6 million in penalties from manufacturers for
noncompliance with minimum standards and certification requirements.

Our audit found opportunities for improvement in the administration of the Standards Program.
Specifically, we found the Department had not always ensured that manufacturers certified
products to meet the minimum standards as required by Federal regulations, and annually re-
certified products as required by Federal regulations. Additionally, the Department could not
demonstrate that it had provided adequate oversight of the Manufacturer Impact Analysis, a key
work-product used by program officials to develop and set minimum standards. We also noted
that the Department had not met many of its legislative deadlines for the establishment of test
procedures and minimum standards.

We made recommendations to improve the Standards Program and address the identified issues.
As a result of our audit, the Department initiated actions to address the 23 uncertified products
Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    53
and 6 products that had not been re-certified by either establishing a new enforcement case or
addressing the uncertified products through existing enforcement cases. As of January 2013, the
Department had completed enforcement actions on three of the products we referred to it for
enforcement and assessed penalties totaling $24,000. (OAS-M-13-05)


The Department of Energy’s Administration of Energy Savings Performance
Contract Biomass Projects
In 2012, to help achieve renewable energy goals and realize energy cost savings, the Department
began operating two new biomass facilities located at its Oak Ridge National Laboratory (Oak
Ridge) and the Savannah River Site.

Our review of the Biomass Projects, financed by Energy Savings Performance Contracts
(ESPCs), at Oak Ridge and the Savannah River Site disclosed that the Savannah River Site had
generally developed and administered its Biomass Facility in an effective manner. However, we
found planning and operational issues with the Oak Ridge Biomass Plant could cause the
Department to incur over $67 million more than necessary over the life of the project.
Specifically, we noted that the Oak Ridge Site Office had not always planned and operated its
Biomass Plant to minimize the Government's risk. For instance, it had not mitigated the risk of
biomass fuel shortages and cost fluctuations, which could result in fuel costs exceeding original
plans/projections by more than $23 million over the life of the project.

These problems were due in part to inadequate guidance and oversight. The Department had not
required major ESPC construction projects to adhere to critical elements of its existing capital
project management and acquisition directive, and had not developed a process to identify,
document and disseminate lessons learned from ESPC projects across the complex.
We made several recommendations designed to assist the Department with ongoing biomass
projects, and with planning, designing and operating future ESPCs and biomass facilities.
Management generally concurred with our recommendations and identified actions taken and
planned to address our recommendations. (DOE/IG-0892)


The Department of Energy's Management of Contractor Responsibility
Determinations
From January 2010 to January 2012, the Department's Office of Headquarters Procurement
Services (Headquarters Procurement) and the National Nuclear Security Administration's Office
of Acquisition Management in the Albuquerque Complex (Albuquerque Procurement) awarded
contracts totaling approximately $6 billion to 1,315 contractors included in our review.

We determined that Headquarters Procurement and Albuquerque Procurement did have
processes and procedures in place to restrict contracts awards to entities with tax delinquencies
and those deemed non-responsible. However, we identified opportunities in which these
processes and procedures could be improved. For example, we identified instances in which

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    54
required offeror representations and certifications were either not completed or were not up-to-
date at the time of contract award. Additionally, important procurement documentation used in
determining a bidder's responsibility was not always included in the official contract files, as
required by Department policies and procedures.

The problems we identified occurred, in part, because Headquarters Procurement and
Albuquerque Procurement management did not ensure that procurement personnel consistently
implemented controls designed to determine whether a contractor was responsible. In addition,
management did not always ensure that the official contract files were properly maintained.
We provided a recommendation. Department and NNSA management concurred with our
recommendations to address the weaknesses we observed in the contractor self-certification
process. Management's corrective actions, taken and planned, are responsive to our
recommendations. (OAS-M-13-07)


Sandia National Laboratories' Readiness in Technical Base and Facilities
Program
Through the National Nuclear Security Administration's (NNSA) Readiness in Technical Base
and Facilities (RTBF) Program, Sandia National Laboratories (Sandia) maintains facilities and
infrastructure equipped with advanced scientific and technical tools to support NNSA's
operational and mission requirements.

A key aspect of Sandia's RTBF is the Operations of Facilities Subprogram (Subprogram), which
provides support to 31 of Sandia's 41 mission critical facilities. Funding for the Subprogram,
which totaled $139.3 million of Sandia's $165.5 million Fiscal Year 2013 RTBF budget, is
intended to sustain specific nuclear weapons' Mission Critical Capabilities essential to
performing national security missions in a readiness state to execute missions, such as the
nuclear weapons Life Extension Programs. The Subprogram budget also supports nuclear
weapons programmatic infrastructure requirements such as general plant projects and capital
equipment.

Nothing came to our attention to indicate that Sandia's RTBF Subprogram was not effectively
supporting Life Extension Programs mission needs. Specifically, our review disclosed that
Sandia met or exceeded its RTBF program goals for FY 2012. In addition, we noted that
Subprogram officials implemented performance monitoring controls. Subprogram and Mission
Critical Capabilities management also prioritized capital investments and management plans to
mitigate risks, such as the needed recapitalization of aging and unsupported tools. We did not
propose any recommendations because we did not identify concerns with NNSA's and Sandia's
management of the Subprogram. (OAS-L-13-13)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   55
Follow-up Audit of the Department of Energy's Financial Assistance for
Integrated Biorefinery Projects
The Departments Bioenergy Technologies Office (Program) supports the development of
biomass resources into commercially viable biofuels, bioproducts and biopower. The Program
provides financial assistance for integrated biorefinery projects to assist in building and operating
facilities at each scale of development: pilot, demonstration and commercial. Despite over 7
years of effort and the expenditure of about $603 million, the Department had not yet achieved
its biorefinery development and production goals. Specifically, the Energy Policy Act of 2005
mandate to demonstrate the commercial application of integrated biorefineries had not been met
and the Department was not on target to meet its biofuels production capacity goal.

We found that the Department had not successfully achieved commercial-scale operations even
though the Funding Opportunity Announcements issued in 2006 and 2007 indicated that the
proposed projects should be operational at the commercial scale within 3 to 4 years. Further, the
2009 Funding Opportunity Announcements indicated proposed demonstration projects would be
operational as soon as possible after award and proceed rapidly to commercial-scale operations.
Additionally, we found that the Department was not on target for achieving its 2014 production
capacity goal of 100 million gallons of advanced biofuels. Program management concurred with
the recommendations and initiated corrective actions that are generally responsive to our
recommendations. (DOE/IG-0893)


Fiscal Year 2011 Work Performed Under the Work for Others Program at
Sandia National Laboratories
The Department and its semi-autonomous provide research and technical assistance to other
Federal agencies on a reimbursable, full cost recovery basis through the Work For Others (WFO)
Program. WFO agreements are also used as a mechanism through which industry can utilize
expertise and facilities at Sandia National Laboratories (Sandia), a Federally Funded Research
and Development Center.

The Office of Inspector General contracted with KPMG, LLP (KPMG), to assess the internal
control structure at Sandia and determine whether it is effective in achieving the current goals
and objectives of the WFO Program. KPMG identified several opportunities to strengthen
controls cover WFO costs. For instance, KPMG found that costs relating to Sandia's WFO
support organizations were included in the general and administrative cost pool that was
allocated to both WFO projects and other Department projects on an organization-wide basis,
rather than using an allocation base that bears a more direct causal beneficial relationship to the
support organizations' costs. KPMG estimated that the Department would have an annual
savings of approximately $2.3 million by implementing a separate indirect rate for these support
organizations. KPMG recommended that Sandia consider removing the WFO support
organization costs from the general and administrative indirect cost pool, and establish a separate
indirect cost pool for allocating these costs to WFO projects. The National Nuclear Security


Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013     56
Administration generally concurred with the findings and recommendations and proposed
corrective actions that are responsive to our recommendations. (OAS-L-13-14)


The Radioactive Liquid Waste Treatment Facility Replacement Project at Los
Alamos National Laboratory
Los Alamos National Laboratory’s (Los Alamos) primary responsibility is to ensure the safety,
security and reliability of the nation's nuclear stockpile. To meet its mission, Los Alamos stores,
treats and disposes of low-level waste and transuranic liquid waste (TRU) at the Radioactive
Liquid Waste Treatment Facility (RLWTF). The National Nuclear Security Administration
(NNSA) and Los Alamos have been planning a replacement project for the RLWTF since 2004,
have made multiple changes in the design of the facility with plans to construct two facilities in
2005, one facility in 2006, and then returning to the two facilities approach in 2011. The current
two facility design has a total estimated project cost as much as $214 million and respective
completion dates of 2017 and 2020.

While NNSA has recently taken action to address RLWTF replacement project issues, we
observed that the NNSA and Los Alamos had not effectively managed the project over most of
its lifecycle. Despite more than 7 years of effort, and the expenditure of $56 million, design
work for the TRU facility has not been completed and the project's completion date is 11 years
behind schedule. Furthermore, the total estimated cost for the replacement project has increased
from $86 million to as much as $214 million, a 149 percent increase. Additionally, independent
peer and internal control reviews have noted that NNSA and Los Alamos had not developed
reliable life cycle cost estimates, used a Risk Management Plan, and applied Value Engineering
principles to optimize the design of the facility. NNSA and Los Alamos have made
improvements in the project management of the RLWTF; however, we made suggestions for
further improvement. (OAS-L-13-15)


The Department of Energy's Energy Innovation Hubs
The Department's Energy Innovation Hubs (Hubs) initiative addresses research challenges with
potentially high impact on our national energy security that have proved the most resistant to
solution by conventional research and development management structures.

We found that the Hubs initiative was generally satisfying the specific Federal, Department and
programmatic requirements that we evaluated during our review. Although our review did not
identify material concerns regarding Hub operations, we identified several areas warranting
management attention by the Department. Specifically, the Department had not effectively
managed conference and meeting costs and had not always ensured conflict of interest
certifications were obtained and/or retained for all external merit reviewers and Federal
employees participating in the Hub selection process.

Excessive conference and meeting costs occurred because the Department had not provided
sufficient oversight over these costs. The missing conflict of interest certifications were due to
Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    57
poor recordkeeping practices. Management concurred with our recommendations and indicated
that it had completed or initiated corrective actions designed to address our concerns.
Management's reported corrective actions were responsive to our recommendations.
(OAS-M-13-08)



The Resumption of Criticality Experiments Facility Operations at the Nevada
National Security Site
Citing safety and security concerns, in 2004 the National Nuclear Security Administration
(NNSA) halted criticality experiments at Los Alamos National Laboratory and authorized a
capital project to transfer this capability to the Device Assembly Facility at the Nevada National
Security Site (Nevada). The project remodeled a portion of the Device Assembly Facility to
form the National Criticality Experiments Research Center (NCERC).

We found that NNSA restored many of the former capabilities of the Criticality Experiments
Facility at the NCERC in Nevada. We noted, however, that several problems with start-up
activities resulted in delays in restoring the full array of experimental capabilities included in the
project. Specifically, NNSA was unable to authorize the start-up of NCERC operations until
May 2011. The program experienced further delays in the start-up activities of each criticality
machine. Further, NCERC has been unable to restore its full capability to perform plutonium-
based criticality experiments.

The delays in restoring capabilities occurred because NNSA had not ensured that contractors had
developed adequate procedures for correcting concerns identified during the process to authorize
the start-up of NCERC, the safety basis documentation matched facility conditions, and procured
safety equipment met cited standards. Additionally, NNSA had not ensured effective
management of the multiple contractors involved in developing and amending the safety basis
documentation. Finally, NNSA has struggled to successfully integrate and resolve issues
between the multiple contractors involved in NCERC facility operations. Management
concurred with our recommendations and proposed corrective actions that are responsive to our
recommendations. (OAS-M-13-09)



Department of Energy Quality Assurance: Design Control for the Waste
Treatment and Immobilization Plant at the Hanford Site
The Department is constructing the $12.2 billion Waste Treatment and Immobilization Plant
(WTP) to vitrify approximately 56 million gallons of radioactive and chemically hazardous
waste stored at the Hanford Site. To ensure the vitrification process is safe for workers, the
public and the environment, the Department required the contractor for the WTP, Bechtel
National Inc. (Bechtel), to develop and follow a quality assurance program based on the
American Society of Mechanical Engineer's Quality Assurance Requirements for Nuclear
Facility Applications (NQA-1) Standard.

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013      58
The Office of Inspector General received an allegation that Bechtel was missing design control
documentation for the WTP and as such, could not demonstrate that equipment was
appropriately manufactured.

We substantiated the allegation. Our review revealed significant shortcomings in the
Department’s process for managing the design and fabrication changes of waste processing
equipment procured for the WTP. The Department had not ensured that Bechtel subjected
design changes requested by suppliers to the required review and approval by Bechtel's
Environmental & Nuclear Safety Group. Further, the Department had not ensured that Bechtel
properly verified that deviations from design requirements that could affect nuclear safety were
implemented. Management concurred with our recommendations and provided corrective
actions taken and planned to address specific weaknesses identified in our report. We consider
management's comments and planned corrective actions responsive to our findings and
recommendations. (DOE/IG-0894)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   59
Inspection Reports
Alleged Mismanagement of the Department of Energy's Executive Protection
Operations
The Office of Special Operations (Special Operations) has primary responsibility for the
protection and evacuation of the Secretary of Energy and other executive personnel as designated
by the Secretary. Special Operations, a part of the Office of Health, Safety and Security,
employs special agents charged with managing executive protection operations. These special
agents apply tactics, techniques and procedures designed to protect an individual from physical
assault or harm. Special Operations agents are augmented by Office of Secure Transportation
agents while the Secretary is on travel status, and in coordination with Office of Health, Safety
and Security Headquarters Security Police Officers when in the Headquarters building.

We received allegations of mismanagement of the Department's Executive Protection forces.
The complaints varied, but generally fell into categories such as inadequate training;
mismanagement of resources, such as failure to provide appropriate body armor; and lack of
implementation of recommendations for improvement. While certain aspects of the allegations
were substantiated, the evidence did not support a number of concerns that had been raised.
However, perhaps of greatest importance, the Special Operations agents generally described their
work environment as one permeated by low morale. We noted, for instance, that certain
operational training had not been completed and individual purchases of body armor were not
made between 2007 and 2012. We did not substantiate a number of other specific allegations
involving issues such as failure to complete recommended actions. In response to the findings,
management concurred with the recommendations and agreed to take corrective action to address
the concerns raised by Special Operations agents and to ensure that the executive protection
function is operating as effectively as possible.
(INS-SR-13-02)


Alleged Improprieties Regarding the Canine Program at the Department of
Energy's Y-12 Site
The Department’s Canine Program is an essential component of its efforts to identify and deter
potential threats to infrastructure and personnel. At the Y-12 National Security Complex (Y-12)
and other nuclear material hosting sites in the Department, canines are used to detect explosives,
narcotics, concealed humans and also track human presence at facilities that store, handle and
maintain special nuclear material. As outlined in Department directives and adopted as best
practices by law enforcement and security professionals, the performance of canine teams
depends on continual reinforcement of skills through realistic performance testing, proficiency
training and annual certifications. As required by their contract with the Department, canine
services contractors are required to develop and implement a canine training and certification
program that embodies these principles. Canine services at Y-12 were obtained through a 5-year
contract that is valued at almost $15 million. Subsequently, in 2012, we received allegations that
the Department's Y-12 site: (1) possibly "rigged" testing for canine teams, and (2) worked

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   60
canines beyond their physical capability to perform effectively. Because of conflicting
testimony and a lack of supporting documentation, we could not conclusively determine whether
there were instances of "rigged" testing. However, our inspection identified a number of issues
that led us to question the efficacy of the processes used to test, train and certify canines at
Y-12. For instance, performance testing, training and annual certifications of canine teams were
not properly conducted and/or documented. We did substantiate the allegation that handlers had
worked canines beyond their physical capability to perform assigned duties. Deficiencies
associated with the management of a multi-layered contract structure for furnishing canine
services at the Y-12 site contributed to the problems we observed. Finally, Federal officials and
various contractor officials acknowledged that they had not reviewed the training and
certification records for the canine teams because the Canine Program was not identified as a
high-risk security area based on the Department's graded approach for risk determination.
Management concurred with the recommendations in the report and agreed to develop and
implement standardized policies and guidelines for all National Nuclear Security Administration
sites utilizing canine detection services. (DOE/IG-0886)


Alleged Nepotism and Wasteful Spending in the Office of Energy Efficiency
and Renewable Energy
The Department administers various hiring programs designed to generate a pipeline of talent to
replenish its workforce and to maintain overall workforce vitality. One of those programs is the
Student Temporary Employment Program (STEP), which provides opportunities for students to
gain work experience, while enhancing their awareness of the Department's mission and
functions. STEP appointments are exempted from the usual competitive selection examining
procedures; however, this does not negate the responsibility for ensuring a fair and open
competitive process during the selection of STEP participants. While the Office of the Chief
Human Capital Officer provides various hiring related services to a number of program offices,
selection authority is vested in individual program offices.

Recently, we received allegations that a senior Office of Energy Efficiency and Renewable
Energy official had violated these regulations by: (1) engaging in nepotism by advocating for his
three children to obtain STEP employment at the Department; and (2) wasting funds by enrolling
two of the three children in costly training courses unrelated to their duties as STEP interns.

Our inspection substantiated the allegation that the senior Office of Energy Efficiency and
Renewable Energy official was actively involved in securing STEP intern appointments at the
Department for his three college-aged children. The allegation related to enrolling his children
in inappropriate training was not substantiated. Nepotism or even its appearance can have a
decidedly negative impact on morale within an organization. As is readily apparent, providing
inappropriate advantages for relatives of Federal employees damages the integrity of the
competitive process and erodes public trust in the Federal hiring process. Management
concurred with the recommendations in the report to strengthen internal controls over hiring
processes within the Department. (DOE/IG-0888)



Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   61
Concerns with Consulting Contract Administration at Various Department
Sites
The National Nuclear Security Administration requested that we conduct a review to determine
whether a consulting agreement awarded to Heather Wilson and Company, LLC (HWC), by Los
Alamos National Laboratory was appropriately administered and managed. Specifically, we
were asked to determine whether: (1) work products were produced in return for monthly
payments to HWC of $10,000; (2) invoices included itemized charges, as required by the
agreement; (3) there was overlap between the services provided and work products produced by
HWC on consulting agreements awarded by Sandia National Laboratories, Los Alamos, Oak
Ridge National Laboratory and the Nevada National Security Site; and (4) an NNSA Contracting
Officer was subjected to "pressure" when Los Alamos National Security, LLC, the Management
and Operating contractor for Los Alamos, requested authorization to enter into an agreement
with HWC.

Our inspection identified serious concerns with the administration and management of
agreements with HWC for advice and consultation provided to senior managers at four
Department contractor-operated sites. Specifically, our testing revealed that the four facility
contractors paid approximately $450,000 to HWC even though they did not receive evidence that
work performed under the agreements had been completed. These payments were fully
reimbursed by the Government.

The issues identified in this report occurred because contractor officials responsible for crafting
and administering the consulting agreements either did not incorporate, or failed to enforce, the
requirements of the Federal Acquisition Regulation into the agreements with HWC.
Management generally agreed with our findings and recommendations and indicated it was in
the process of implementing or completing corrective actions. Management indicated that the
Department has already recovered $442,877 from its contractors of the approximately $464,203
paid to HWC, and is reviewing the allowability of the additional amounts. (OIG/IG-0889)


Follow-up Inspection on Characterization Wells at Los Alamos National
Laboratory
Since the early 1940's, the Los Alamos National Laboratory (Los Alamos) has conducted
experimental research on the development of nuclear weapons and explosive materials. These
activities have resulted in the generation and disposal of a variety of hazardous, radioactive, and
solid wastes. In 1998, Los Alamos developed a workplan that established the basis for
characterizing the hydrogeologic system beneath the facility. Implementation of the workplan
required the installation of 32 regional aquifer wells, commonly referred to as characterization
wells.

In our September 2005 report on Characterization Wells at Los Alamos National Laboratory,
(DOE/IG-0703), we noted that the use of mud rotary drilling methods during well construction
was contrary to specific constraints established in Resource Conservation and Recovery Act

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    62
guidance. We also noted that muds and other drilling fluids that remained in certain wells after
construction created a chemical environment that could mask the presence of radionuclide
contamination and compromise the reliability of groundwater contamination data.
Our follow-up inspection found that Los Alamos had taken action designed to improve the
management of its characterization well program. Specifically, we noted that Los Alamos no
longer uses mud rotary drilling methods during well construction, and appropriate steps have
been taken to ensure data derived from monitoring wells is reliable. Additionally, we found that
responsibility for the monitoring well program had been transferred to the New Mexico
Environmental Department. (INS-O-13-05)


Follow-up Inspection on Material Control and Accountability at Los Alamos
National Laboratory
The Department’s Los Alamos National Laboratory (Los Alamos) is managed and operated
under contract by Los Alamos National Security, LLC, for the National Nuclear Security
Administration (NNSA). Los Alamos tracks, manages and controls nuclear materials in 64
Material Balance Areas (MBAs). Our September 2007 report on Material Control and
Accountability at Los Alamos National Laboratory, (DOE/IG-0774) identified weaknesses
regarding the control and accountability of nuclear materials. Management committed to
implementing the report recommendations and to taking appropriate corrective actions. We
initiated this inspection to determine if Los Alamos implemented the planned corrective actions
intended to improve the policies and procedures for inventory, transfers, characteristics and
locations of nuclear materials related to the MC&A Program.

While several corrective actions were completed on the recommendations included in our prior
report, our inspection revealed that Los Alamos continued to experience problems with the
accountability of certain nuclear materials controlled under its MC&A Program. Specifically,
our testing of 15 MBAs revealed instances in which nuclear materials were not maintained in the
correct location, properly labeled or correctly identified in the Los Alamos MC&A database.
The issues we identified occurred, in part, because Los Alamos personnel did not always provide
effective oversight to ensure the control and accountability of nuclear materials. Specifically,
Los Alamos did not ensure that its accounting record system accurately reflected the identity and
location of nuclear materials as required by Department Manual 470.4-6, Nuclear Material
Control and Accountability. Management generally agreed with our findings and
recommendations. (INS-O-13-04)


Allegations Regarding Prohibited Personnel Practices at the Bonneville Power
Administration
In June 2012, the OIG received an anonymous complaint alleging prohibited personnel practices
at Bonneville Power Administration (Bonneville). Based on our work to date, we have reached a
preliminary conclusion that Bonneville engaged in a number of prohibited personnel practices.
Notably, Bonneville’s hiring practices appeared to have effectively disadvantaged veterans and

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   63
other applicants. Such action was inconsistent with concerted efforts by the Federal government
to ensure that veterans received appropriate preferential treatment in the hiring process. Equally
concerning and the primary reason for the urgency of the management alert, Bonneville has
apparently proposed or recently executed a number of personnel actions against certain
employees who have cooperated with our review. These actions have a potentially chilling effect
on various aspects of our work and, as such, jeopardize our ability to effectively complete our
review of the circumstances surrounding inappropriate Bonneville hiring practices. The
Department’s comments were responsive to our recommendations. Notably, the Department
initiated immediate corrective actions. (DOE/IG-0891)


Allegations of Irregular Hiring Practices and Preferential Treatment in the
Loan Programs Office
The Department’s Loan Programs Office (LPO) grants and monitors loans to private sector
entities to develop new clean energy technologies. LPO was authorized by the Energy Policy
Act of 2005 with the goal of creating jobs, reducing dependency on foreign oil, improving the
Department’s environmental legacy, and enhancing American competitiveness in the global
economy of the 21st century. As with most Departmental programs, LPO relies on both Federal
and contractor employees to carry out its mission. With the support of the Department’s human
resources officials, LPO recruits and hires Federal employees. Federal regulations prohibit
employees from granting any preference or advantage to applicants for Federal employment,
unless specifically prescribed by law. Regarding contractor support, with limited exception,
Federal employees are prohibited from becoming involved in contractor employee personnel
matters.

We received a complaint alleging that a senior LPO official: (1) hired a “friend” for a Federal
program position; and (2) directed a contractor to hire six individuals. We initiated this
inspection to examine the facts and circumstances surrounding these allegations.

Our inspection identified actions taken by a senior LPO official that could have caused others to
perceive a misuse of position. Specifically, we substantiated the allegation that the senior LPO
official hired a "friend" for a Federal position. Regarding the second allegation related to directed
contractor hiring, we found that the senior LPO official had, in fact, not only referred six
individuals, but actually referred a total of 10 individuals with whom the official was affiliated,
to a support service contractor for hiring consideration. However, we did not substantiate the
allegation that the official actually directed the hiring of the referred individuals. Nonetheless,
the actions by the senior LPO official could have created the appearance that the official was
inappropriately involved in the contractor's hiring process. (INS-L-13-06)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013     64
Unclassified Foreign National Visits and Assignments at Oak Ridge National
Laboratory
During calendar year 2012, the Oak Ridge National Laboratory (Oak Ridge), which is managed
by UT-Battelle, LLC, hosted approximately 6,400 foreign national visitors and assignees
(foreign nationals). Such visits and assignments can be beneficial to the Department but may
also create certain security risks.

Our inspection revealed that improvements are needed in the implementation of the Department's
Foreign National Visits and Assignments Program at Oak Ridge. We determined that contrary to
Host Agreements and individual security plans, hosts did not always maintain accountability of
foreign nationals as required. In addition, we found that Oak Ridge Office of
Counterintelligence officials did not ensure that required Counterintelligence consultations had
been documented and completed in the Department's Foreign Access Central Tracking System
(FACTS) for foreign nationals prior to their visits.

Although we did not identify any instances in which export information or other scientific
information was inappropriately obtained by a foreign national, the risk that these events could
occur is higher than acceptable because of the weaknesses in Oak Ridge's program. We also
found that the Oak Ridge Host Audit Program, which provided management oversight of the
Foreign National Visits and Assignments program, had also not been effectively implemented.

The Oak Ridge Site Office concurred with the report recommendations and identified actions it
had planned or had already taken to address our recommendations. We consider management's
comments responsive to our recommendations. (INS-O-13-05)


Accountability and Control of Explosives at the Lawrence Livermore National
Laboratory’s High Explosives Applications Facility
The High Explosives Applications Facility (HEAF) is a state-of-the-art explosives research
facility located on-site at the Lawrence Livermore National Laboratory (Livermore). We
received a complaint alleging weaknesses with the controls over physical access to explosive
material, as well as weaknesses with explosive inventory control and accountability in the HEAF
explosive operations area.

We substantiated the allegations regarding weaknesses with controls over access and inventory
of explosive materials at the HEAF. We found that Secret and Top Secret cleared individuals at
Livermore had the potential to access the HEAF explosive operations area even though they
lacked specific authorization and/or had not received required safety training. Additionally, we
found that Livermore's Safety Access Training did not adequately address the requirements for
unescorted access to the facility's explosive workrooms. Further, a unified perpetual system of
records capable of tracking and accounting for explosives acquired, stored and expended at
HEAF did not exist. (INS-O-13-06)


Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   65
Recovery Act Reports
The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. Our overarching goal, as with all other
work, is to ensure that the taxpayers' interests relating to the performance and results of the
Recovery Act are protected.

Cost Incentives for the Department's Cleanup Contract in Idaho
In FY 2005, the Department awarded a Cost-Plus-Incentive-Fee contract to CH2M | WG Idaho,
LLC (CWI) to lead environmental cleanup of its Idaho National Laboratory site. The contract
originally ran from May 1, 2005 through September 30, 2012, and has been extended for 3 years
to September 30, 2015. The contract had a target cost of $2.7 billion and a target fee of $196
million (7.36 percent of target cost). The contract includes an additional incentive if work is
completed under target cost. In addition to the target work to be completed within the contract,
additional non-target work was allowed under Section B.5 of the contract. The contractor
initially anticipated that the amount of additional non-target work would be approximately $89
million; however, the amount of non-target work completed ultimately increased to about $510
million, with the largest increase attributable to work funded under the Recovery Act. The
Department and CWI are now negotiating to close out the agreed upon scope of work covered by
the contract performance period that ended September 30, 2012, and to calculate fee based upon
the cost to complete this work. During our review, nothing came to our attention to indicate that
General and Administrative (G&A) costs had not been properly allocated to the non-target
work. In accordance with its Cost Accounting Disclosure Statement, CWI allocated about $128
million in G&A expenses to its non-target work, about $88 million more than originally planned,
which reduced the G&A expense allocated to CWI's target work and thereby reducing the total
costs of target work. Additionally, the contractor contends the allocation served to reduce the
actual cost of target work scope, and as a consequence, it is entitled to earn fee at the target work
scope rate on the allocated amount. However, we learned that the Department disagreed with the
impact of the G&A allocation on the incentive fee and was in a dispute with CWI regarding its
overall fee. Based on the totality of the information we reviewed, we concluded that the contract
modifications accepted by CWI disclosed that its fee earning potential in this area was
undefinitized. Management concurred with our recommendation and indicated that corrective
action has been initiated. (OAS-RA-13-20)


The Hydrogen Energy California Project
Under the Recovery Act, the Department’s Office of Fossil Energy received $3.4 billion to focus
on the research, development and deployment of technologies to use coal more cleanly and
efficiently. In September 2009, the Department approved a cooperative agreement award with a
Government contribution of $308 million to Hydrogen Energy California, LLC (HECA) to
construct a commercial power plant to demonstrate the capture and underground storage of
carbon dioxide. The project was expected to be completed in November 2018, at a total cost of
about $2.8 billion.

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013     66
In March 2011, after the Department and HECA spent approximately $75 million, HECA's
original recipients notified the Department that they intended to terminate the agreement because
the project did not meet their requirements for economic viability. With the Department's
assistance, HECA found new owners that believed the project could be economically viable. In
September 2011, the Department modified the cooperative agreement and increased total project
cost to approximately $4 billion with a Department cost share of $408 million. We initiated this
audit to determine whether the Department effectively managed the modification of the HECA
cooperative agreement and subsequent cost share activities.

Our audit found that the project is progressing; however, in our view, the Department is
managing HECA at an increased risk level. We noted that the modified cooperative agreement
actually represented a substantial increase in upfront risk to the Department by allowing HECA
to substantially decrease its cost share in the early stages of the project. As such, the Department
is at risk of expending $133 million for its share of project costs in the first phase without it
being completed if the recipient is unable to obtain funding for the next project phase. To help
mitigate the risks identified in the HECA project, we provided suggestions to ensure similar
situations do not recur and improve the management of cooperative agreements.
(OAS-RA-13-22)


Department of Energy's Interconnection Transmission Planning Program
Funded through the American Recovery and Reinvestment Act of 2009
Under the Recovery Act, the Department's Office of Electricity Delivery and Energy Reliability
received about $4.5 billion to modernize the electric grid. About $80 million of this funding was
designated for the Interconnection Transmission Planning Program to facilitate the development
or strengthening of capabilities in each interconnection. The transmission infrastructure in the
United States is separated into three distinct electrical networks, or interconnections – the
Western, Eastern, and Texas interconnections. The Department allocated $60 million to five
organizations under cooperative agreements to perform work for the interconnections and $20
million to the Department's national laboratories to provide technical support to those
organizations. The cooperative agreements covered interconnection-level analysis and planning,
and coordination and cooperation among states on electric resource planning and priorities.

We found that the Department had generally established and implemented a system of internal
controls for managing the announcement, review and selection of cooperative agreement funding
recipients. Also, the recipients had released the required planning studies to the public in 2011.
However, we found that the Department had not adequately managed reimbursements to
recipients for consultant compensation. As such, we questioned the payment of $86,000 in
payments to consultants. Management partially concurred with our recommendations, but
provided corrective actions that we considered to be responsive. This report is the third in a
series of reports on the Department's funding to modernize the electric grid. (OAS-RA-13-26)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    67
Modular Office Facilities for Recovery Act Program Activities at the Hanford
Site
The Departments Richland Operations Office (Richland) awarded a contract, effective October
1, 2008, to CH2M HILL Plateau Remediation Company (CHPRC) to remediate select portions
of the Hanford Site's Central Plateau. As part of the Recovery Act, Richland designated $1.3
billion of Recovery Act funding to the Plateau Remediation Contract to accelerate CHPRC's
work scope from April 2009 through September 2011.

Due to the influx of Recovery Act funding in 2009 and the accelerated schedule, CHPRC hired
an additional 1,757 employees, including subcontractors. To provide office space for these
temporary employees, CHPRC procured a total of 176 modular facilities consisting of 114
purchased and 62 leased facilities at an approximate total cost of $29 million.

We received an allegation that a number of the facilities CHPRC purchased with Recovery Act
funds were either never used or were underutilized. Our review substantiated the allegation. In
particular, we discovered that CHPRC incurred as much as $1.5 million more than necessary by
purchasing unneeded modular facilities and almost $600,000 in lease costs that could have been
avoided by more expediently returning leased facilities that were no longer needed. In fact, we
found that 7 of 176 facilities purchased with Recovery Act funds were not utilized through
September 30, 2011, the date that most Recovery Act work at Richland ended. We could not
determine whether the remaining facilities were underutilized because the contractor's
documentation did not adequately justify the need for all of the facilities. Management generally
concurred with the suggested actions in our report. (OAS-RA-L-13-04)


The Department of Energy Vehicle Technologies Program's $135 Million in
Funding to Ecotality, Inc.
The Department’s Vehicle Technologies Program aims to decrease U.S. oil dependence by
developing and deploying advanced transportation technologies. The scope of the Vehicle
Technologies Program was significantly increased when it received approximately $2.8 billion in
funds as part of the Recovery Act. Subsidiary companies of Ecotality, Inc. (Ecotality) received
about $35 million from 2005 to 2011, for two multi-year projects to test and evaluate advanced
technology vehicles. In 2009, Ecotality was awarded a Recovery Act grant for about $100
million for electric vehicle demonstration and infrastructure evaluation. For this award, Ecotality
planned to install three different types of charging stations for electric vehicles in various
geographical regions around the country.

Our review identified opportunities to improve the effectiveness of the Department's
administration of its awards to Ecotality. We noted that the Department had not adequately
documented its consideration of alternatives before making significant changes to Ecotality's
Recovery Act project. Additionally, the Department had not ensured that the selection of
commercial charging station locations was based on a process that advanced the goals of the
project. Further, the Department had not ensured that Ecotality's awards were finalized in a

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   68
timely manner. We did not find that the cost-share concept for this project was prohibited under
Federal regulations; however, we concluded that the cost-share arrangement was unusual and
provided Ecotality with a very generous cost-share credit.

We made several recommendations to address the issued we observed and to improve the
management of this and similar projects. Management concurred with our recommendations and
indicated that it had completed or initiated corrective actions that were responsive to our
recommendations. (OAS-RA-13-29)


The Department of Energy's Hydrogen and Fuel Cells Program
The Department spent approximately $1 billion over the last 5 years on Hydrogen and Fuel Cells
Program activities implemented through various projects at Federal laboratories, universities,
non-profit institutions, Government agencies and industry participants. The Department also
provided an additional $42 million in Recovery Act funding to accelerate the commercialization
and deployment of fuel cells.

We found the Department had not always effectively managed the financial aspects of the
Hydrogen and Fuel Cells Program. For instance, we found that the Department approved and
reimbursed unsupported and/or unallowable costs at 9 of the 10 recipients included in our
review. Further, the Department had not ensured that recipient procurement practices were
adequate to fully protect the Government's interests and complied with applicable policies,
procedures and best practices.

The issues we identified occurred, in part, because program officials had not always provided
effective monitoring and oversight and/or adequate guidance to ensure that required financial and
accounting policies and procedures had been properly adhered to on a consistent basis. The lack
of attention to financial monitoring of recipients increased the risk that questionable and/or
unallowable costs would be charged to the Department and reduce the amount of funds available
to complete projects. Accordingly, we questioned more than $6.7 million in reimbursements to
Hydrogen and Fuel Cells Program recipients included in our review. Management concurred
with our recommendations and indicated that it had initiated and/or taken corrective actions to
that are responsive to our recommendations. (OAS-RA-13-31)



Energy Efficiency and Conservation Block Grant Program
As part of the Recovery Act, the Energy Efficiency and Conservation Block Grant (EECBG)
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors.



Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   69
South Carolina Energy Office – Energy Efficiency and Conservation Block
Grant Program Funds Provided by the American Recovery and Reinvestment
Act of 2009
The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the Energy
Efficiency and Conservation Block Grant (EECBG) Program received about $3.2 billion to assist
in implementing strategies to reduce fossil fuel emissions, decrease total energy use of local
governments, improve energy efficiency and create jobs.

The South Carolina Energy Office (SCEO) is responsible for operating the State of South
Carolina's energy efficiency programs and for administering EECBG Program funding. The
SCEO received about $9.6 million that was allocated as block grants to units of local government
and competitive grants that support energy efficiency projects.

We contracted with an independent certified public accounting firm to examine SCEO's
compliance with Federal and State laws, regulations and program guidelines applicable to the
EECBG Program. The examination found that SCEO complied in all material respects with the
requirements and guidelines relative to the EECBG Program for the period September 30, 2009
through December 31, 2011. There were no findings and recommendations as a result of this
examination. (OAS-RA-13-21)


Commonwealth of Puerto Rico Energy Affairs Administration – Energy
Efficiency and Conservation Block Grant Program Funds Provided by the
American Recovery and Reinvestment Act of 2009

As part of the Recovery Act, the Energy Efficiency and Conservation Block Grant (EECBG)
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors. Commonwealth of Puerto Rico Energy Affairs Administration's
(Puerto Rico) received a $9.6 million formula EECBG grant award that was to be expended over
a 3-year period from September 21, 2009 through September 20, 2012. Puerto Rico requested
and received an extension of its grant to March 31, 2013.

We contracted with an independent certified public accounting firm to express an opinion on
Puerto Rico's compliance with Federal and Commonwealth of Puerto Rico laws, regulations and
program guidelines applicable to the EECBG Program.

The examination found that except for the significant deficiencies described in its report, Puerto
Rico complied in all material respects with the aforementioned requirements and guidelines
relative to the EECBG Program for the period September 21, 2009 through December 31, 2011.

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   70
For instance, Puerto Rico did not know the status of and had not maintained supporting
documentation for four cash advances totaling $449,000 to ensure funds were used for allowable
costs. The Department's comments were responsive to our recommendation. (OAS-RA-13-27)


Costs Incurred by Selected Tribal Energy Efficiency and Conservation Block
Grant Recipients

Under the Recovery Act, the Department’s Energy Efficiency and Conservation Block Grant
(EECBG) Program received $3.2 billion to improve energy efficiency and reduce energy use and
fossil fuel emissions. The Department's Office of Energy Efficiency and Renewable Energy
allocated about $2.7 billion of the funds using a population-driven formula to over 2,000 entities
including states and territories, cities and counties, and Native American tribes. The Navajo
Tribal Utility Authority (NTUA), the Cherokee Nation, Muscogee Creek Nation, Choctaw
Nation of Oklahoma, and Chickasaw Nation received the largest tribal EECBG grants, which
totaled $13.9 million and represented approximately 25 percent of the total EECBG funds
awarded to Native American tribes. As of December 31, 2012, approximately $12 million of
these funds had been expended by the five recipients.

Our review identified $518,994 in questionable costs reimbursed by the Department to two of the
five largest tribal recipients of EECBG funds. For instance, NTUA did not follow applicable
Federal regulations or have adequate support related to allocability and allowability for $517,794
in costs reimbursed by the Department for consulting, legal and administrative costs. The
majority of questioned costs occurred because NTUA failed to follow its own policies and
procedures related to procurement of services, to adequately review legal expenditures charged
to the grant prior to seeking reimbursement, and to adhere to Federal regulations requiring the
adequate support of allowable administrative charges.

Department officials concurred with the findings and recommendations and had been working
with the tribal recipients to ensure all corrective actions were implemented. The Department's
corrective actions were responsive to our recommendations. (OAS-RA-13-28)

Weatherization Assistance Program
As part of the Recovery Act, the Weatherization Assistance Program (Weatherization Program)
received $5 billion to reduce energy consumption for low-income households through energy
efficient upgrades.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   71
Travis County Health & Human Services and Veterans Services
Weatherization Assistance Program Funds Provided by the American
Recovery and Reinvestment Act of 2009
As part of the Recovery Act, the Weatherization Assistance Program (Weatherization Program)
received $5 billion to reduce energy consumption for low-income households through energy
efficient upgrades. The State of Texas received $327 million in Weatherization Program
Recovery Act grant funding, of which $8.9 million was allocated to Travis County Health &
Human Services and Veterans Services (Travis County) to weatherize approximately 1,060
homes. The State of Texas' Department of Housing and Community Affairs was responsible for
administering Weatherization Program grants, including funds provided to Travis County. We
contracted with Lani Eko & Company, CPAs, PLLC, to conduct an examination of Travis
County's Weatherization Program. The examination found that Travis County had not ensured
that homes it weatherized were eligible for those services. Specifically, Travis County did not
have procedures in place to ensure compliance with Federal requirements that prohibit use of
Federal funds to weatherize dwelling units designated for acquisition or clearance by a Federal,
state or local program within 12 months from the date weatherization of the dwelling units would
be completed. Further, Travis County had not properly supported 33 of 45 client transactions
reviewed. The Department concurred with the report recommendation and will ensure
appropriate action is taken by the State of Texas to improve administration of Recovery Act
Weatherization Program funds at Travis County Health & Human Services and Veterans
Services. (OAS-RA-13-18)


Area Community Services Employment and Training Council –
Weatherization Assistance Program Funds Provided by the American
Recovery and Reinvestment Act of 2009
The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Assistance Program (Weatherization Program) received $5 billion to reduce
energy consumption for low-income households through energy efficient upgrades. The State of
Michigan received over $250 million in Weatherization Program Recovery Act grant funding, of
which $3.58 million was allocated to the Area Community Services Employment and Training
Council (ACSET). The State of Michigan's Bureau of Community Action and Economic
Opportunity under the Department of Human Services was responsible for administering
Weatherization Program grants, including funds provided to ACSET.

We contracted with an independent certified public accounting firm, Lani Eko & Company,
CPAs, PLLC, to examine ACSET's compliance with laws, regulations and program guidelines
applicable to the Weatherization Program. The examination found that ACSET had not properly
verified applicant and unit eligibility. Additionally, ACSET had not ensured initial
weatherization services provided, and subsequent re-work performed, met the quality of work
standards of the Weatherization Program. Further, ACSET had not maintained proper
documentation sufficient to ensure compliance with Weatherization Program requirements as

Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   72
they specifically apply to final inspections. The Department concurred with our
recommendation and will continue to monitor billing, eligibility determinations, and trend
analysis as part of its grant oversight responsibility. (OAS-RA-13-23)


Southwest Michigan Community Action Agency – Weatherization Assistance
Program Funds Provided by the American Recovery and Reinvestment Act of
2009
The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Assistance Program (Weatherization Program) received $5 billion to reduce
energy consumption for low-income households through energy efficient upgrades.

The State of Michigan received over $250 million in Weatherization Program Recovery Act
grant funding, of which $6.69 million was allocated to the Southwest Michigan Community
Action Agency (Southwest). The State of Michigan's Bureau of Community Action and
Economic Opportunity under the Department of Human Services was responsible for
administering Weatherization Program grants, including funds provided to Southwest.

We contracted with Lani Eko & Company, CPAs, PLLC, to examine Southwest's compliance with
laws, regulations and program guidelines applicable to the Weatherization Program. The
examination found that Southwest had inaccurately stated "Jobs Created and Retained" hours in its
quarterly reporting and had not provided evidence that findings noted by the inspector in the Final
Inspection Report had been addressed. The Department concurred with the recommendation and
will continue to monitor billing processes, eligibility determinations, and trend analysis as part of
its grant oversight responsibilities. (OAS-RA-13-24)


The Department of Energy's Weatherization Assistance Program Funded
under the American Recovery and Reinvestment Act for the State of
Michigan

Under the Recovery Act, the Department's Weatherization Assistance Program (Weatherization
Program) received $5 billion to improve the energy efficiency of residences owned or occupied
by low-income persons. The Department subsequently awarded a Recovery Act Weatherization
Program grant of over $250 million to the State of Michigan, which included an additional
Recovery Act award of nearly $7 million of Sustainable Energy Resources for Consumers
funding. This grant provided roughly 10 times the $26 million in Department funds available to
Michigan for weatherization in FY 2009. The Michigan Bureau of Community Action and
Economic Opportunity administers these Recovery Act grants through 31 local community
action agencies and a limited purpose organization.

We reviewed three of Michigan's local agencies – City of Detroit Department of Human
Services, Area Community Services Employment and Training Council (ACSET), and
Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013    73
Southwest Michigan Community Action Agency (Southwest) – to determine if it had effectively
managed the Weatherization Program. This report focused on conditions common to the local
entities reviewed; however, we have issued separate reports on the Area Community Services
Employment and Training Council and Southwest Michigan Community Action Agency under
separate covers, for conditions specific to those entities.

We identified opportunities for Michigan and the three local agencies reviewed to improve
management of the Weatherization Program. For instance, we found persistent problems with
the quality of weatherization work. Also, we found that eligibility for weatherization services
had not always been properly verified, and the local agencies had requested reimbursement for
weatherization services that had either not been completed or had never been performed.
Overall, we questioned $115,800 for reimbursement of weatherization services that had not been
completed or verified as completed or were potentially ineligible. The Department concurred
with our recommendations designed to improve the Weatherization Program in the areas of
quality of work, financial monitoring and eligibility determination. (OAS-RA-13-25)


Alamo Area Council of Governments – Weatherization Assistance Program
Funds Provided by the American Recovery and Reinvestment Act of 2009

As part of the Recovery Act, the Weatherization Assistance Program (Weatherization Program)
received $5 billion to reduce energy consumption for low-income households through energy
efficient upgrades. The State of Texas received $327 million in Weatherization Program
Recovery Act grant funding, of which $15.5 million was allocated to the Alamo Area Council of
Governments (Alamo) to weatherize approximately 3,000 homes. The State of Texas'
Department of Housing and Community Affairs was responsible for administering
Weatherization Program grants, including funds provided to Alamo. The Office of Inspector
General contracted with Lani Eko & Company, CPAs, PLLC (Lani Eko), to express an opinion
on Alamo's compliance with applicable Federal and state laws, regulations and program
guidelines.

The examination found that Alamo had falsified Weatherization Program records and improperly
weatherized multi-family dwellings. Further, Alamo had incurred unallowable costs of $146,850
for forensic audits and reviews to determine the extent of the program's mismanagement.
Specifically Lani Eko noted instances in which a four-unit building and an eight-unit building
were weatherized, even though eligibility requirements had not been met for those buildings.
Lani Eko questioned the allowability of the $21,904 in costs incurred for the weatherization of
those buildings.

The Department concurred with the recommendation and has been working with the State and
Alamo to ensure that all corrective actions are implemented. Its comments were responsive to
the recommendation to work with the State to improve administration of Recovery Act
Weatherization Program funds at Alamo and resolve the questioned costs.


Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   74
State Energy Program
Selected Sub-grantees of the Department of Energy's American Recovery and
Reinvestment Act of 2009 – Illinois State Energy Program
The Department's State Energy Program (SEP) provides grants to states, territories, and the
District of Columbia to support energy priorities and fund projects that meet their unique energy
needs. The Recovery Act significantly expanded the SEP by providing an additional $3.1
billion. The Illinois Department of Commerce and Economic Opportunity was allocated $101.3
million in Recovery Act SEP funds, and allocated the funds to 8 separate programs funding more
than 138 projects. We contracted with an independent certified public accountant firm to
perform examinations of four selected sub-grantees to test compliance with Federal and State
laws, regulations and program guidance.

The examinations found that the Association of Illinois Electric Cooperatives did not adequately
monitor member cooperatives to ensure delivery of energy efficiency upgrades or services
performed for which rebates were issued. Additionally, Bley, LLC did not comply with
Recovery Act requirements to separately track costs and maximize competition in equipment
purchases, and Funk Linko, Inc. did not properly account for its cost matching and maximize
competition in equipment purchases. Further, Abengoa Bioenergy Operations, LLC could not
fully support that it had complied with Recovery Act requirements to separately identify costs,
pay prevailing wages in accordance with the Davis-Bacon Act, and ensure competition in
awarding subcontracts.

In addition to compliance issues identified, we are concerned about Illinois' practice of providing
Recovery Act funds to projects that had already been completed. Although not expressly
prohibited, we questioned whether providing funds for completed projects met the intent of the
Recovery Act to stimulate the economy and create or save jobs. The Department concurred with
the recommendations and committed to implementing corrective actions. Regarding Illinois'
practice of providing Recovery Act funds to completed projects, the Department responded that
the costs were incurred during the allowable timeframe for the grant, and stated that it had been
assured by the Illinois Department of Commerce and Economic Opportunity that all other
projects were consistent with the intent of the Recovery Act legislation and that the costs were
incurred within the Recovery Act timeframe. (OAS-RA-13-19)




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013   75
Reporting Requirements Index

The following identifies the sections of this report that address each of the reporting
requirements prescribed by the Inspector General Act of 1978, as amended.



Section         Reporting Requirement                                                     Page
4(a)(2)         Review of Legislation and Regulations                                        23

5(a)(1)         Significant Problems, Abuses, and Deficiencies                              36-75

5(a)(2)         Recommendations for Corrective Action to Significant Problems               44-75
                Previous Reports’ Recommendations for Which Corrective Action
5(a)(3)                                                                                      25
                Has Not Been Completed
5(a)(4)         Matters Referred to Prosecutive Authorities                                 36-43

5(a)(5)         Information Assistance Refused or Not Provided                              N/A

5(a)(6)         Audit Reports Issued in This Reporting Period                               8-22

5(a)(7)         Summary of Significant Reports                                              44-75

5(a)(8)         Reports with Questioned Costs                                                31

5(a)(9)         Reports with Recommendations That Funds Be Put to Better Use                 30
                Previous Audit Reports Issued with No Management Decision
5(a)(10)                                                                                     24
                Made by End of This Reporting Period
5(a)(11)        Significant Revised Management Decisions                                    N/A
                Significant Management Decisions with which the OIG is in
5(a)(12)                                                                                    N/A
                Disagreement
                Federal Financial Management Improvement Act-related
5(a)(13)                                                                                    N/A
                Reporting
5(a)(14–16) Peer Review Results                                                              35




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013      76
ABOUT the DEPARTMENT and OIG
The U.S. Department of Energy is headquartered in Washington, DC and currently operates 24
preeminent research laboratories and facilities, four power marketing administrations, a wide
variety of field offices, and 8 Program Offices which help manage the Department’s mission
with more than 15,000 employees. The Department is the Nation's top sponsor of research and
development and has won more Nobel Prizes and research and development awards than any
other private sector organization and twice as many as all other Federal agencies combined. The
mission of the Department is to ensure America’s security and prosperity by addressing its
energy, environmental and nuclear challenges through transformative science and technology
solutions.


The OIG’s mission is to strengthen the integrity, economy and efficiency of the Department’s
programs and operations. The OIG has the authority to inquire into all Department programs and
activities as well as the related activities of persons or parties associated with Department grants,
contracts, or other agreements. As part of its independent status, the OIG provides the Secretary
with an impartial set of "eyes and ears" to evaluate management practices. With approximately
290 employees, the organization strives to be a highly effective organization that promotes
positive change.




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013     77
OIG HOTLINE CONTACT
Contact the OIG Hotline if you suspect fraud, waste or abuse involving Department programs or
by a Department employee, contractor or grant recipient.

Contact Information:

    •   Toll Free Telephone Number:                                 1-800-541-1625
    •   Washington DC Metro Telephone Number:                       202-586-4073
    •   Email Address:                                              ighotline@hq.doe.gov
    •   Physical Address:                                           U.S. Department of Energy
                                                                    1000 Independence Ave, SW
                                                                    Washington, DC 20585

FEEDBACK
The contents of the September 2013 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any suggestions for
making the report more responsive, please submit the following information and click the
“submit email” button below:

    •    Name
    •    Telephone Number
    •    Comments/Suggestions/Feedback




Energy Inspector General | Semiannual Report to Congress | April 1 – September 30, 2013     78
